<html>
<title> - THE USE OF OFFICIAL TIME FOR UNION ACTIVITIES AT THE DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









  THE USE OF OFFICIAL TIME FOR UNION ACTIVITIES AT THE DEPARTMENT OF 
                            VETERANS AFFAIRS

=======================================================================

                             JOINT HEARING

                                 of the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                                and the

               COMMITTEE ON OVERSIGHT & GOVERNMENT REFORM
                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, FEBRUARY 16, 2017

                               __________

                            Serial No. 115-3

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-369                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS
               COMMITTEE ON OVERSIGHT & GOVERNMENT REFORM

                 MARK MEADOWS, North Carolina, Chairman

JODY HICE, Georgia                   GERALD E. CONNOLLY, Virginia, 
JIM JORDAN, Ohio                         Ranking Member
MARK SANFORD, South Carolina         CAROLYN MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES-NORTON, District of 
RON DESANTIS, Florida                    Columbia
DENNIS ROSS, Florida                 WILLIAM LACY CLAY, Missouri
ROD BLUM, Iowa                       BRENDA LAWRENCE, Mississippi
                                     BONNIE WATSON COLEMAN, New Jersey

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


























                            C O N T E N T S

                              ----------                              

                      Thursday, February 16, 2017

                                                                   Page

The Use Of Official Time For Union Activities At The Department 
  Of Veterans Affairs............................................     1

                           OPENING STATEMENTS

Honorable Mark Meadows, Chairman,Committee on Oversight and 
  Government Reform, the Subcommittee on Government Operations,..     1
Honorable Gerald E. Connolly, Ranking Member of the Subcommittee 
  on Government Operations.......................................     2
Honorable Jodey Arrington, Chairman Subcommittee on economic 
  Opportunity, Committee on Veterans' Affairs....................     4
Honorable Beto O'Rourke, Ranking Member of the Subcommittee on 
  Economic Opportunity, Committee on Veterans' Affairs...........     6
Honorable Tim Walz, Ranking Member, Full Committee on Veterans' 
  Affairs........................................................     7

                               WITNESSES

Ms. Cindy Brown Barnes, Director, Education, Workforce and Income 
  Security , U.S. Government Accountability Office...............     8
    Prepared Statement...........................................    41
Ms. Kimberly Perkins McLeod, Acting Executive Director, Labor 
  Management Relations, U.S. Department of Veterans Affairs......     9
    Prepared Statement...........................................    46
Mr. J. David Cox, Sr., National President, American Federation of 
  Government Employees, AFL-CIO..................................    11
    Prepared Statement...........................................    47
Mr. Trey Kovacs, Policy Analyst, Competitive Enterprise Institute    12
    Prepared Statement...........................................    52

                        STATEMENT FOR THE RECORD

Cindy Brown Barnes' response to a question posed by 
  Representative O'Rourke........................................    57 
 
  THE USE OF OFFICIAL TIME FOR UNION ACTIVITIES AT THE DEPARTMENT OF 
                            VETERANS AFFAIRS

                              ----------                              


                      Thursday, February 16, 2017

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                  Subcommittee on Oversight
                                        and Investigations,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 12:37 p.m., 
in Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[Chairman of the Subcommittee on Government Operations] 
presiding.
    Present: Representatives Meadows, Arrington, Hice, 
Bilirakis, Jordan, Wenstrup, Rutherford, Massie, Banks, 
DeSantis, Ross, Blum, Roe, Chaffetz, Connolly, O'Rourke, 
Takano, Correa, Clay, Rice, Watson Coleman, and Walz.

                  OPENING STATEMENT OF MEADOWS

    Mr. Meadows. The Committee on Oversight and Government 
Reform, the Subcommittee on Government Operations, and the 
Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity will come to order, and without objection, the 
chair is authorized to declare a recess at any time.
    Good afternoon, and today's hearing will allow us the 
opportunity to learn more about the official time used at the 
Department of Veterans Affairs. And for those of you who may 
not know what official time is, what a Federal employee 
actually does to use official time and representational work on 
behalf of the labor unions during work hours, even if that work 
is unrelated to their regular assigned duties.
    The official time statute broadly lays out those union 
activities that are reasonable, necessary, and in the public 
interest that are permissible. And the last time OPM disclosed 
data on official time use in 2012, it revealed that VA 
employees comprised almost one-third of the 3.4 million hours 
of official time performed by Federal employees' government 
wide.
    Specifically, VA employees performed 1,086,257 hours of 
official time, and that's the most of any agency. OPM also 
found that official time is on the rise, increasing by a half 
million hours between 2008 and 2012. Between fiscal year 2014 
and fiscal year 2015, 1,942 VA employees were engaged in some 
degree of official time. And in fact, in fiscal year 2014, 345 
VA employees had 100 percent of their time was official time, 
so they were essentially full-time on official time. That means 
that 345 VA employees spent all of their time engaged on union 
activities.
    In fiscal year 2015, that was 343 VA employees that had 100 
percent of their time engaged in official time activities. Data 
provided by the VA to the Committee reveals that three of the 
top five positions with full or 100 percent official time were 
nurses. The data we have is only a small window into how much 
time Federal employees spend on official time activities, but 
because agencies are not required by law to annually report the 
amount of time their employees perform, it makes it very 
difficult, making the recent audit of the VA done by GAO, it 
found that it could not accurately track the amount of time 
employees spend on official time at the VA agency wide.
    With the VA taking up one-third of the official time for 
the entire Federal Government, it's important that it employs 
accurate methods to calculate and records to show how much time 
we are spending on those union activities. Now, I look forward 
to hearing from both the GAO and the VA to see what steps can 
be taken to make sure that not only we accurately reflect that 
but what steps have been taken and can be taken to accurately 
track official time.
    I want to be clear about one thing. This is not about 
whether Federal employees should or should not participate in 
official time. We recognize, I recognize the importance of that 
particular activity. Today's hearing is really about what is 
reasonable and what is in the best interest of the taxpayers 
who foot the bill for official time.
    With the VA backlog in the tens of thousands, it's 
reasonable for medical professionals'--is it reasonable for 
medical professionals to spend 100 percent of their days on VA 
union activities?
    And so with that, we continue to hear VA understaffed 
situations in the midst of an access crisis. Is it responsible 
for doctors, nurses, and other employees providing direct 
patient care to be 100 percent official time or maybe even 75 
or 50 percent?
    Our Nation's veterans deserve to have an accountable VA. 
Understanding how much time VA employees are spending on union 
activities is an important part towards granting the veterans 
the access to proper care they deserve, need, and have earned.
    And so with that, I now recognize the Ranking Member of the 
Subcommittee on Government Operations, my good friend from 
Virginia, Mr. Connolly.

                 OPENING STATEMENT OF CONNOLLY

    Mr. Connolly. Thank you so much, Mr. Meadows, and thanks 
for holding this hearing on the use of official time and the 
ability of unions to protect the whistleblowers who help 
prevent waste, fraud, and abuse in the Federal Government.
    Our Committees have a longstanding commitment to 
whistleblowers, but sometimes I think some of my colleagues 
forget that whistleblowers are Federal employees. Attacks on 
Federal employees can do harm to whistleblowers. That may suit 
our new President who has also muzzled whistleblowers 
temporarily at some agencies, but I feel it is detrimental to 
the positive influence whistleblowers have on Federal 
operations.
    For this reason, I join the Chairman of this Subcommittee 
in sending a letter to all agencies to determine the effects of 
gag orders on whistleblower protections, and I thank the 
Chairman for joining with me in that effort.
    Today we received a letter from a whistleblower, a Federal 
employee at the VA, the very agency the Chairman was just 
talking about. Her name is Dr. Michelle Washington. In 2011, 
Dr. Washington was a psychologist and coordinator of post-
traumatic stress disorder services for the Veterans' Affairs 
facility in Wilmington, Delaware. She observed that veterans 
were facing severe problems getting access to mental health 
services. She subsequently testified before the Senate 
Committee on Veterans' Affairs to voice her professional 
concerns with a system not fulfilling its mission.
    Did she get a bonus or a promotion for a job well done? Far 
from it. Her supervisors at the VA retaliated. Her excellent 
performance evaluations suddenly became downgraded. She was 
relieved of responsibilities helping veterans and was uninvited 
to planning meetings, and her coworkers were pressured not to 
associate with her. This is a video of Dr. Michelle.
    [Video shown.]
    Mr. Connolly. Thank you. The retaliatory actions taken 
against Dr. Washington were illegal. Last week, the Oversight 
Committee strengthened these protections when it unanimously 
passed a bill I co-introduced with Representative Duffy, H.R. 
657, the Follow the Rules Act, also cosponsored by yourself, 
Mr. Chairman. It's not enough to pass these laws, however, and 
pay lip service at occasional hearings.
    These protections have to be enforced. In the workplace, 
Federal employee unions have enforced the whistleblower laws 
Congress passes, and they do it on official time.
    Current law allows unions to stand up for Federal employees 
facing retaliation, such as Dr. Washington faced in the 
workplace. Dr. Washington's letter states that official time 
is, quote, ``absolutely necessary to help protect veterans, 
workers, and whistleblowers,'' and I would ask unanimous 
consent to enter her letter addressed to you, myself, Mr. 
Chaffetz, Mr. Cummings into the record.
    Mr. Meadows. Without objection.
    Mr. Connolly. I thank my friend.
    Dr. Washington explained that AFGE representatives were 
only able to help meet at designated periods of time when they 
were allowed to use official time. My union representative used 
official time to research OPM regulations as well as write up 
and file the grievances and have 10 meetings with me in 
attempts to address the retaliation, and remember, the broader 
goal was in order to make sure veterans were served.
    Some of my colleagues want to eliminate the ability of 
Federal employees to perform union representational duties on 
official time. Dr. Washington's experience tells us what the 
consequences of that policy could be. She wrote, quote, ``If 
official time had not been available to the AFGE 
representatives, we may not have been able to defend my case. 
It would have set a precedent that management can retaliate 
without consequence.''
    I'm certain we don't intend to disadvantage whistleblowers, 
I know we're committed to them, but the effect of their 
concerted attacks on unions and civil service protections 
sometimes would be to strip whistleblowers of their advocates 
in the workplace, their union.
    And I hope Mr. Chairman will proceed with great caution on 
this subject, and I thank him for holding the hearing. I yield 
back.
    Mr. Meadows. I thank the gentleman. The gentleman from 
Virginia knows very well that whistleblower protection and the 
rights of Federal employees is something that may not normally 
be a bipartisan issue but with this Chairman certainly is, and 
I will continue to remain vigilant as we look to protect that.
    Mr. Connolly. And for the record, I know that, and I 
reaffirm that. You're absolutely right.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the Chairman on the Subcommittee for Economic Opportunity of 
the Committee on Veterans' Affairs, Mr. Arrington for his 
opening statement.

                 OPENING STATEMENT OF ARRINGTON

    Mr. Arrington. Thank you, Mr. Chairman. I'd like to also 
reiterate that I support protections for whistleblowers, and I 
want to note that last year's Congress enacted one of the 
strongest whistleblower protection initiatives within the VA in 
our Nation's history, so I think we stand shoulder to shoulder 
on that.
    Thank you, Mr. Chairman, thanks to everybody for being 
here. Thank you, panelists.
    This is my first official hearing as Chairman of the VA 
Committee Subcommittee on Economic Opportunity, and let me say 
I'm very excited to work with my Ranking Member and fellow 
Texan, Congressman O'Rourke.
    And I'm also pleased, obviously, to partner with you, Mr. 
Chairman, and the other Members on your Committee.
    I believe we can all agree that the mission of the 
Department of Veterans Affairs is to care for those who have 
borne the battle. This is more than a government agency 
mission. This is a sacred honor. This is a sacred 
responsibility for every VA employee and for every American. 
The men and women who have raised their right hand to serve and 
who have been willing to make the ultimate sacrifice, I think 
you will agree, deserve nothing but the best service and care 
worthy of their commitment to our country.
    Unfortunately, time and time again situations have come to 
light where the care of our veterans, the care that they were 
receiving didn't measure up to this standard of excellence.
    Now here we are, almost 3 years later after Phoenix, an 
agency wide wait list scandal where several veterans waiting 
for months, some who died before they could get an appointment 
with a doctor, and yet the problem still persists. Veterans are 
still waiting too long to receive an appointment.
    Veterans and their families are still waiting too long for 
their disability compensation claims to be adjudicated and 
their appeals to be decided upon, 450,000 plus appeals in 
backlog. In fact, VA's own statistics indicate that there are 
over 45,000 vacancies within the Veterans' Health 
Administration, and the claims backlog for disability claims 
has recently increased 33 percent. These statistics are 
absolutely unacceptable, and they are the reality, and in my 
opinion, the shameful reality of the current state of affairs 
at the VA.
    I want to be clear, the purpose of this hearing is not to 
completely discredit any use of the official time within VA or 
even across the Federal Government. After all, it is allowed 
under law. We must, however, ask ourselves this question: Are 
we going to fulfill the mission of the VA and provide excellent 
service to our veterans, or are we going to perpetuate what I 
believe appears to be a broken bureaucracy and a culture of 
unaccountability?
    I'm grateful to the Government Accountability Office for 
taking this large task of looking at the use of official time 
at the VA and how the Department is tracking its use, as well 
as space at facilities used for union activities.
    I'm very troubled, Mr. Chairman, by their findings, that 
the VA is not accurately or sufficiently tracking how much time 
employees are using official time and that the data that we do 
have from the VA is unreliable at best. This concerns me on a 
number of levels.
    Are people taking advantage of the system? I would conclude 
that most likely they are, because whether intentional or not, 
without an accountability system, there is no consistent means 
to track official time even if you wanted to, and as the old 
saying goes, you can't manage what you can't measure.
    This issue brings me to something that concerns me even 
more. Not only are some individuals spending 100 percent of 
their working days doing union activities while receiving their 
taxpayer-funded salaries, but some individuals are receiving 
their taxpayer-funded salaries and are not even being 
appropriately tracked for what they are doing with the time 
that they are not directly serving our veterans or just doing 
the jobs that they were hired to do.
    As someone who has overseen multitudes of different staffs 
throughout my career, I can't fathom an instance where I would 
be paying someone a taxpayer-funded salary to do a job that I 
can't even account for at the end of the day. And what's even 
more troubling is that in the recent GAO report, this is not 
the first discovery. This is not the first time this has been 
brought to light. There have been other studies by GAO, 1979, 
1981, 1996, recommending that time spent on union activities 
needs to be better tracked.
    Here we are again, 2017, still having the same conversation 
and GAO is still making the same recommendations. This is 
insane. I understand both sides of the aisle aren't going to 
always agree on to what extent unions should be involved or the 
power that they should hold in the Federal Government, but I 
know, I know that we all agree that the Department of Veterans 
Affairs should place the needs of our veterans above all else. 
And I'm very concerned that in this current environment, this 
isn't the case.
    We have doctors, nurses, medical assistants, therapists, 
pharmacists, claims raters, senior raters, and so on and so on 
serving on official time, many 100 percent of their time, some 
of them making over six figures. This means we have hundreds, 
if not thousands of VA employees spending part and sometimes 
all their working days serving the union instead of directly 
serving our veterans. Again, doing the job they were hired to 
do.
    I understand that union representation--that union 
representatives are supposed to serve the employees of the VA 
facility, whether it is through grievances or management 
relations, which in turn, one could argue, serves the overall 
facility's function, but you would be hard pressed to convince 
me or any reasonable person that a physician making over 
$200,000 a year, paid for by taxpayers, is best utilized 
sitting in an office dealing with union grievances for 100 
percent of their working day rather than standing by the 
bedside of a veteran caring for that veteran.
    The standard for official time is to use it on, quote, 
``representational work,'' work that is, quote, ``reasonable, 
necessary, and in the public's interest.'' I don't believe the 
average American would see this as reasonable. I don't believe 
the average American would see this as necessary, and I don't 
believe they would see it as in their best interest. In fact, I 
believe the average American would be outraged.
    I came to Congress, as I think most of my colleagues did, 
to make a difference, to root out the real problems facing our 
country, find real solutions. And while this hearing today is 
not going to completely resolve all the issues related to 
official time in union activities on the taxpayer's dime, I 
think this discussion is necessary and pertinent, and we 
continue to reform and fix the VA as a whole.
    I thank the witnesses for being here. I look forward to 
your testimony, and thank you, Mr. Chairman. I yield back.
    Mr. Meadows. I thank the gentleman from Texas. The chair 
recognizes the gentleman from Texas, the Ranking Member, Mr. 
O'Rourke.

                 OPENING STATEMENT OF O'ROURKE

    Mr. O'Rourke. Mr. Chairman, I want to thank you and the 
Ranking Member of the Government Reform Subcommittee and my 
Chairman of the Economic Opportunity Subcommittee of the 
Veterans' Affairs Committee for putting this hearing together, 
to the witnesses who have made available to us, and our 
government and the veterans that we serve, their time and 
testimony, experience, and expertise today. I'm looking forward 
to learning from you.
    Mr. Chairman, just briefly. On Friday, I had the 
opportunity to visit the Veterans' Affairs Medical Center in El 
Paso, Texas. There was a full lobby of volunteers greeting 
veterans, veterans coming in for their appointments, veterans 
leaving, and the staff who serve them. It underscored how 
important our mission is here on these Committees, the VA's 
mission to our veterans, and also showed some of what is 
working that we need to capitalize on.
    The veterans that I spoke to, and we know they are not shy 
about telling us when things are not working, to a person if 
they had seen by a doctor or provider said that they had 
received excellent timely care. The staff that I had a chance 
to meet, shake their hands, asked them how they were doing, 
upbeat, smiling, wanting to serve. But I'm also mindful of the 
fact that too many veterans in El Paso and every community in 
this country are unable to get an appointment, whether it's 
mental health care or primary care or specialty care 
appointment, where they're waiting too long on a claim to the 
Veterans' Benefits Administration or an appeal to that claim 
whose wait time is not measured in months but today in years. 
So we have some problems.
    I want to ensure that whatever we do capitalizes on the 
strengths that we have and addresses those weaknesses and 
corrects them. In both cases, that would be dependent on making 
the most of the employees that we have at the VA. They are the 
ones who in many cases are veterans themselves, in every case 
are represented by the unions at the VA, and I would argue, are 
fundamental to the solutions that we're looking for.
    We have some examples in this GAO report of where 
management and employees agree that but for the work of these 
unions, we would not be able to train appropriately, we would 
not be able to protect and facilitate whistleblowing, and we 
would not be able to innovate. I call everyone's attention to 
page 20 of the report where GAO quotes a manager who said at a 
mental health care program at a VA facility in this country, it 
was the employees who were able to suggest a substance abuse 
program at a time of opioid crisis in this country, and it was 
through the union that they ensured that we had the appropriate 
training and perspective on this program so that it would be a 
success.
    I want to make sure that we're understanding where we have 
opportunities. I think, however, we all agree on the 
fundamental problem here. VA is not tracking time, and I agree 
with everyone here that's a problem. It needs to be fixed. It's 
an issue of leadership, of commitment, and accountability.
    I don't want to lose what's working at the VA, and I want 
to do everything possible to strengthen the ability of every 
employee at the VA to deliver excellent care and service.
    Lastly, Mr. Chairman, I'd be remiss without noting the 100 
to 0 confirmation of the new Secretary of the VA, Dr. David 
Shulkin, a person who I know is committed to addressing these 
issues who will ensure that we track that time and who will 
make the most of the ability of those employees, the employees 
we have yet to hire to deliver on our commitment to this 
country's veterans. With that, I yield back.
    Mr. Meadows. I thank the gentleman from Texas. The chair 
recognizes the Ranking Member of the Full Committee, the 
gentleman, the avid runner from Minnesota, Mr. Walz for his 
opening remarks.

                   OPENING STATEMENT OF WALZ

    Mr. Walz. I thank the Chairman, and I just wanted to thank 
both Subcommittees on this. I'll waive my opening statement. 
Let's hear from the witnesses. I appreciate the opening 
statements from everyone. Thank you.
    Mr. Meadows. I thank the gentleman, and I would like to 
welcome all of you. I will hold the record open for five 
legislative days for any Member who would like to submit a 
written statement.
    We'll now recognize our panel of witnesses, and we're 
pleased to welcome Ms. Cindy Barnes, the director of Education, 
Workforce, and Income Security at the U.S. Government 
Accountability Office. Welcome, Ms. Barnes.
    Ms. Kim McLeod, the acting executive director of labor 
management relations at the U.S. Department of Veterans 
Affairs. Welcome, Ms. McLeod.
    Mr. David Cox, a fellow North Carolinian, the national 
president of the American Federation of Government Workers. 
Welcome, Mr. Cox.
    And Mr. Trey Kovacs, the policy analyst at the Competitive 
Enterprise Institute.
    And pursuant to Committee rules, all witnesses will be 
sworn in before they testify, so if you would please rise and 
raise your right hand.
    [Witnesses sworn.]
    Mr. Meadows. Let the record reflect that all witnesses 
answered in the affirmative. You can be seated.
    In order to allow time for discussion, we would appreciate 
if you would limit your oral testimony to 5 minutes, but your 
entire written testimony will be made part of the record.
    And so we will recognize you, Ms. Barnes, for 5 minutes.

                   STATEMENT OF CINDY BARNES

    Ms. Barnes. Chairman Arrington and Meadows, Ranking Members 
O'Rourke and Connolly, and Members of the Subcommittees, I am 
pleased to be here today to discuss GAO's January 2017 report 
on Union's Use of Official Time and Space at the VA. Federal 
employees, by law, are able to use official time to perform 
certain union activities instead of their regular work.
    According to the VA, almost 290,000 bargaining unit 
employees across the agency spent over a million hours on 
official time during fiscal year 2015. My remarks will cover, 
one, how VA tracks official time; two, the amount of designated 
space used for union activities at selected facilities; and 
three, the views of VA managers and union officials on the 
benefits and challenges of employees using official time.
    For our report we reviewed VA's official time data for 
fiscal years 2014 and 2015, and this was agency wide data. We 
also analyzed information on designated space at five VA 
facilities. We interviewed groups of VA managers and union 
officials at the five facilities, and we selected the 
facilities based on the number of bargaining unit employees and 
also across VA administrations.
    The bottom line is that we weren't able to determine the 
amount of official time used by VA employees and the purposes 
for which it was used because VA doesn't have a standard way 
for facilities to record and calculate official time. This 
situation exists because of three primary reasons.
    First, in terms of recording official time, VA uses two, 
time and attendance systems across the agency that capture 
information on official time differently. VA's new system, the 
VA Time and Attendance System, or VATAS, has specific codes to 
record official time, but the older system doesn't. We found 
that three of the selected facilities didn't record official 
time in either of these systems, the old or the new one.
    Second, we found that VA hasn't provided consistent 
training and guidance on recording official time in VATAS. 
Timekeepers and other officials that we talked to at three 
selected facilities that had actually transitioned to the new 
system were not using the codes to record official time because 
they weren't aware of them. We recommended that VA increase its 
efforts to provide consistent training and guidance on 
recording official time in VATAS.
    Third, we also found that VA doesn't provide a consistent 
way for its facilities to calculate and report the amount of 
official time used agency wide. To provide agency wide official 
time data to OPM, VA uses yet another system, and this is a 
labor management relations, or LMR system, that is separate and 
distinct from VA's two, time and attendance systems. VA allows 
its facilities to use written records, estimates, samples, 
surveys, or any combination of these methods to calculate the 
amount of official time hours used.
    We recommended that VA encourage facilities to rely on time 
and attendance records for calculating official time prior to 
the agency wide implementation of VATAS. We also recommended 
that VA take steps to transition from using the LMR system to 
VATAS to collect and compile agency wide data on official time. 
VA concurred with all of our recommendations.
    With respect to space, we found that the amount of 
designated space for union activities at selected facilities 
comprise less than 1 percent of overall space available. This 
space was primarily office space.
    Finally, we found that at most selected VA facilities, VA 
managers and union officials we interviewed cited similar 
benefits of employees using official time, such as improving 
decision-making and resolving problems. However, they had 
differing views on the challenges associated with employees' 
use of official time, such as when and how much official time 
may be used.
    In conclusion, our work shows that VA does not have 
reliable information to effectively monitor and manage the 
amount of official time employees use for union activities.
    Thank you. This concludes my statement, and I will be happy 
to respond to any questions you may have.

    [The prepared statement of Cindy Barnes appears in the 
Appendix]

    Mr. Meadows. Thank you, Ms. Barnes. And I want to thank you 
at the GAO and obviously your colleagues at GAO. You enjoy 
bipartisan support, even at times when I would wish you would 
be more partisan. I have not been able to encourage--
    Mr. Connolly. We feel the same way.
    Mr. Meadows [continued]. No doubt. I have not--I've always 
found your information to be insightful and helpful, and as 
with your testimony here today, we do appreciate not only your 
testimony but the work of the GAO as a whole.
    Ms. McLeod, you're recognized for 5 minutes.

              STATEMENT OF KIMBERLY PERKINS MCLEOD

    Ms. McLeod. Good afternoon, Chairman Arrington and Meadows, 
Ranking Members O'Rourke and Connolly, and distinguished 
Members of the Subcommittees. Thank you for the opportunity to 
discuss the progress that the Department of Veterans Affairs is 
making towards accounting for official time to provide the best 
possible service to our Nation's veterans.
    For context purposes, the Federal Service Labor-Management 
Relations statute governs how executive branch agencies treat 
official time. The statute provides for official time for union 
representatives to perform certain union activities. Official 
time is duty time during which a bargain unit employee may 
perform representational activities in lieu of the employee's 
management assigned work without loss of pay or charged to 
leave.
    The statute provides official time to negotiate collective 
bargaining agreements and to participate in proceedings before 
the Federal Labor Relations Authority. In addition, the statute 
requires management and its unions to negotiate amounts of 
official time, which the parties agree are reasonable, 
necessary, and in the public interest. Official time 
negotiations are mandatory, apply to most Federal agencies, and 
include provisions relating to the amount, allocation, 
scheduling, and location of official time.
    VA has negotiated varying amounts of official time in both 
national agreements and local agreements. Many VA facilities 
have local official time agreements and practices specific to 
their location. Official time arrangements are frequently 
distinctively local and reflect the relationship and history 
between local management and local union officials.
    It should be noted that while management has the right to 
negotiate the allocation and use of official time by union 
representatives, in ordinary circumstances, the statute does 
not give management the right to select which employee serve as 
union representatives.
    As you're aware, the recent GAO report regarding VA 
official time use describes how VA has historically not 
implemented a uniform and standardized official time reporting 
system. As the GAO report notes, VA is now using two 
timekeeping systems, the Legacy system or the enhanced time and 
attendance system remains in effect at some facilities. Other 
facilities have implemented VA's new time and attendance 
system, commonly referred to as VATAS, which--okay. I'm sorry. 
Commonly referred to as VATAS. ETA does not have codes for 
employees and supervisors to record the local use of official 
time. VATAS, however, does have that capability.
    As of September 2016, approximately 50 percent of VA 
facilities and about one-third of VA employees, or 120,000, had 
transitioned to VATAS with its official time reporting 
capabilities. The full VATAS multifacility rollout is scheduled 
to be completed by July 2018.
    The GAO report includes three recommendations to improve 
VA's ability to accurately track employee's use of official 
time. VA concurs with GAO's recommendations.
    VA has updated and expanded timekeeper training on the 
collection and reporting of official time in its final ongoing 
VATAS nationwide rollout. Training now includes consistent 
guidance on the proper method of inputting official time codes 
into VATAS.
    VA is providing updated written instructions to all of its 
facilities seeking to establish and enforce a standardized 
approach to recording and reporting official time across VA. VA 
also intends to initiate bargaining with its national unions to 
come to an agreement with them on a standard approach to have 
union officials request, record, and report their use of 
official time in VATAS.
    VA's Office of Human Resources and Administration is 
preparing updated policy guidance to all VA facilities 
concerning the recording of local official time. For those 
facilities where VATAS is already operational, timekeepers and 
supervisors are instructed to use VATAS to record the use of 
official time.
    As VA transitions to a single upgraded timekeeping system, 
official time use will become more transparent and 
standardized, which will guarantee accurate, timely, and 
reliable accounting of official time used across the agency. 
Relying on VATAS, VA will be able to quickly compile and report 
official time data to OPM, Congress, and to other government 
agencies, and will have a substantially enhanced ability to 
monitor use of official time at individual VA facilities.
    This concludes my testimony. I'm happy to answer any 
questions.

    [The prepared statement of Kimberly Perkins McLeod appears 
in the Appendix]

    Mr. Meadows. Thank you, Ms. McLeod.
    Mr. Cox, you're recognized for 5 minutes.

                   STATEMENT OF J. DAVID COX

    Mr. Cox. Chairman Meadows and Arrington, Ranking Members 
O'Rourke and Connolly, and Members of the Committees, thank you 
for the opportunity to testify today.
    It would be great if this hearing were only about the 
findings of the GAO report on VA's recordkeeping with regard to 
official time, but the very right of Federal employees to form, 
join, and be represented by their unions seems to be in 
question.
    However, that question was settled 40 years ago when 
Congress enacted Civil Service Reform Act and stated clearly, 
and I quote, ``labor organizations and collective bargaining of 
the civil service are in the public interest.'' The law goes on 
to require Federal employee unions to provide a wide range of 
representational services for all employees under a collective 
bargaining union.
    In order to carry out that these legal obligations, the law 
provides for, quote, ``official time in the amount the agency 
and the exclusive representative involved agree to be 
reasonable and necessary and in the public interest.'' In the 
VA, AFGE does far more than just represent and negotiate 
contracts. We also work hand-in-hand with management on a daily 
basis to make the agency run better by participating in many 
forums and initiatives, including MyVA that promote the 
effectiveness and efficiency of the agency by helping to 
improve work processes and patient safety. AFGE also assists 
and supports whistleblowers who come forward to report 
instances of fraud, waste, and abuse that would not otherwise 
be known.
    The GAO report confirmed, in most cases, management agrees 
that the involvement of the union leads to better decision-
making, faster resolution of problems, and long-term 
improvements in labor management relationships. All of these 
positive outcomes provide real substantial benefits to veterans 
through better care, faster claims processing, and less waste 
of precious VA resources.
    We should bear in mind that while the GAO study did find 
shortcomings in VA's recordkeeping for official time, there was 
not the slightest suggestion that union officials withheld any 
data or information or provided inaccurate information. The 
findings and recommendations are all aimed at improving the 
training of timekeepers and standardization of data collection 
methods.
    We estimate that more than one-third of the VA workforce 
are veterans themselves, but I can tell you from personal 
experience that the entire VA workforce takes tremendous pride 
in the fact that they have been entrusted with a sacred duty of 
caring for and providing benefits to our veterans.
    It is particularly unfortunate when union representatives 
are blamed for VA's chronic understaffing problems. These 
representatives, like Cathy Dahl of Pittsburgh VA, are helping 
veterans but telling the truth about Legionnaires disease. 
These representatives like Dr. Michelle Washington of the 
Wilmington VA are helping the veterans by telling the truth 
about resources for treatment of PTSD.
    These representatives, like Pauline Dewinter of Phoenix VA, 
telling the truth about how management manipulated wait lists, 
many others are coming forward to tell the truth about chronic 
problems with the CHOICE Act, including forcing veterans to 
accept outside care even when they want to be seen by the VA 
specialist who know them best.
    There are roughly 45,000 unfilled positions in the VA, and 
reducing our ability to perform our representational duties 
will not even fill a small fraction of those jobs but it would 
hurt the agency's ability to care for veterans. The VA's 
recruitment and retention problems reflect not only the 
inadequacy of Federal pay and benefits, especially for new 
hires, but also the national shortage of primary care 
clinicians has nothing whatsoever to do with official time.
    I'll leave you with one last thought. So, many try to turn 
official time into some type of scandal, but the fact is that 
official time is the anecdote to scandal. It's what empowers 
employees to do their job more effectively and provide veterans 
with better care. Veterans deserve nothing less than the 
absolute best.
    Thank you, Mr. Chairman. I'll be glad to respond to any 
questions, and it's very nice to have someone that has a 
distinctive drag like I have chairing the Committee.

    [The prepared statement of J. David Cox appears in the 
Appendix]

    Mr. Meadows. Well, we don't need a translator, do we?
    Mr. Cox. No, we don't.
    Mr. Meadows. The only one that has a better accent, 
southern accent than I do is the gentleman to my right when he 
puts it on. So Mr. Kovacs, you're recognized for 5 minutes.

                     STATEMENT TREY KOVACS

    Mr. Kovacs. Chairman Meadows and Arrington, Ranking Members 
Connolly and O'Rourke, and distinguished Members of the 
Committees, thank you for holding this hearing and providing me 
the opportunity to discuss official time.
    Few Americans are aware that each working day Federal 
employees report for work but do not perform any governmental 
duties. Instead, they perform work for their Federal employee 
union, a private organization that does not serve a public 
purpose. It serves the interest of its members.
    Taxpayers pay for these employees' wages, pensions, and 
health care benefits while they are performing union business. 
Taxpayers also pay for their office space, supplies, and 
travel. For decades, Federal employees have been conducting 
union activities instead of delivering the public services they 
were hired to do. Official time is costly, not properly tracked 
and reported, and can disrupt the delivery of public services, 
the practices and misuse of public funds, because official time 
activity serves the private interest of Federal unions, not the 
American people.
    Instead of carrying out their duties, employees use 
official time to lobby Congress, attend union conventions, file 
grievances, and perform other union activities. While taxpayers 
do not benefit from official time, Federal unions benefit 
greatly.
    According to the latest data available from the Office of 
Personnel Management, official time costs taxpayers $157 
million, with Federal employees spending 3.4 million hours 
conducting union activities. However, OPM's figures are mere 
estimations and inaccurate ones at that. According to a 2014 
Government Accountability Office report, the methodology used 
by OPM to estimate the cost of official time is inaccurate. The 
report finds that OPM estimations have shortcomings, such as 
not using the actual salaries of employees who use official 
time.
    Using a more sound methodology, GAO found that four of the 
six agencies that examined, official time costs about 15 
percent more or higher than OPM estimate. Besides using an 
unreliable methodology, OPM does not track all costs associated 
with official time. For example, the OPM survey does not 
account for the cost of travel, per diem, office space, 
telephones, and equipment related to official time. These costs 
add up. The Social Security Administration is required to 
calculate these non-payroll costs, which in fiscal year 2015 
amounted to $2.2 million, or about 15 percent of the total cost 
of official time at the agency.
    Another reason that official time costs are likely higher 
than reported by OPM is because reports investigating Federal 
agencies have found not all official time activity is tracked 
and reported. The recent GAO report on official time at the 
Department of Veterans Affairs shows that the agency does not 
know how many official time hours are used. The inability to 
monitor what activity takes place on official time means it is 
unknown whether the public's resources are being used 
effectively.
    No matter the cost of official time, all Federal funds need 
to be spent wisely and in the interest of taxpayers. When 
Federal employees perform union activities instead of their 
government duties, it detracts from the efficient delivery of 
public services.
    For example, the Department of Veterans Affairs has a 
significant patient backlog that could be partially remedied by 
putting official time employees back to work performing their 
regular government duties. Over 80 nurses at the VA work 100 
percent of the time on union activities. Their time would be 
better spent treating patients.
    Official time is an unnecessary subsidy to Federal unions 
that serves the interest of unions and their members, not the 
public.
    In conclusion, Congress should consider eliminating 
official time, and short of that, require detailed annual 
reporting of official time to improve the tracking of Federal 
employees' union activity performed on official time. Taxpayers 
have a right to know how much of their tax dollars are used to 
finance official time and what union activities Federal 
employees undertake instead of the job they were hired to do. I 
applaud the Committee's inquiry into the use of official time. 
Thank you, and I look forward to your questions.

    [The prepared statement of Trey Kovacs appears in the 
Appendix]

    Mr. Hice. [Presiding.] Thank you, Mr. Kovacs, and thanks to 
each of our witnesses for your testimony. We will now begin a 
series of question, and the chair will begin by recognizing 
Chairman Arrington for 5 minutes.
    Mr. Arrington. Thank you, Mr. Chairman. Let me preface by 
saying I know there are a lot of great Americans at work at the 
VA and that want to serve our veterans as badly as I do or 
anybody on this Committee.
    I think the entity, I think the system, I think the 
bureaucracy, I think the union dynamic, the civil service 
dynamic has been taken way to the extreme and has been abusive 
and is not allowing us to perform or manage for performance so 
we can serve the customer, which is the veteran and the 
taxpayer.
    This question is for Ms. McLeod and Mr. Cox, and let me 
start with you, Mr. Cox. You mentioned the authorizing 
legislation or the statute that created the ability to unionize 
in the Federal Government. My reading of that says that the 
official time must be performed with respect to 
representational work. So given the access issues, given the 
backlog issues and challenges that we've talked about--let me 
back up.
    The other pieces of--language in that legislation says that 
the time spent working on official time must be reasonable, 
necessary, and in the public's interest. So given the 
challenges that we laid out in our opening statements, or at 
least in mine, do you believe that having somebody work 100 
percent of their time on union activities is reasonable, 
necessary, and in the public's interest?
    Mr. Cox. Ranking--Mr. Chairman, we've got so many chairmen 
and Ranking Members today.
    Mr. Arrington. We're good.
    Mr. Cox. Okay. Let's go to official time. There was a 
statute passed. There are those that believe that unions and 
official time are not important to the government and not 
important to the service of veterans. For employees performing 
official time duties as union representatives, it's not just 
representing in grievances or collective bargaining agreements. 
They serve on many committees such as deals with the electronic 
medical record that the VA developed that everyone in this 
country is now using, patient safety issues that Dr. Bejing 
(ph) started many, many years ago about patient safety that's 
modeled after the FAA regulations that deal with how to report 
medical errors to prevent them from happening and--
    Mr. Arrington. Mr. Cox, let me just--may I just interrupt 
just for--with all due respect. My question is, not what do 
they do, but if they spend 100 percent of their time on union 
activities, 100 percent of their time, is that reasonable, 
necessary, and appropriate?
    Mr. Cox. I would describe it that they spend their time on 
government activities, not union activities, because the law 
requires the unions to perform and to represent everyone in the 
bargaining unit.
    And so, therefore, union activities that are internal to 
the union cannot be performed on official time
    Mr. Arrington. Ms. McLeod, do you believe these are 
reasonable, necessary activities when somebody is spending 100 
percent of their time and that that's in the public's interest?
    Ms. McLeod. Chairman Arrington, what I can tell you is that 
the VA has been negotiating, at least at the national level, 
with putting some limitations on the amount of 100 percent 
union time officials. We have negotiated with a couple of our 
labor partners, new master agreements in the very recent years 
that do not have the number of 100 percent official time, union 
representatives, as you are now seeing.
    I don't know at the local level, which is where most of 
these 100 percent official time representatives come from, 
these are local negotiations. I wasn't sitting there, and I 
don't know how they determine at the local level what was 
reasonable and necessary and in the public interest, but I can 
tell you at the national level what we're doing.
    Mr. Arrington. The VATAS, is that what you--how you 
pronounce it, VATAS, the system for tracking. I read that this 
process for creating this tracking system started in 2013, and 
to date, we still don't have it. It's supposed to be 
implemented by July of 2018.
    Ms. McLeod, can you explain why it's taken 5 years to put a 
tracking system together and roll it out?
    Ms. McLeod. I can't explain that. Unfortunately, that 
process is being managed by another aspect of the Department. I 
can tell you that when the VATAS system initially rolled out, I 
think there were some issues and some hiccups, and they had to 
go back and re-engineer and change some much things on that, 
and then they had to re-roll it out, but we have been adding, 
you know, training components into the VATAS system for 
timekeepers to be able to accurately input official time 
records.
    Mr. Arrington. Thank you. I yield back, Mr. Chairman
    Mr. Hice. I thank the gentleman. The chair now recognizes 
the Ranking Member, Mr. Connolly for 5 minutes
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Kovacs, listening to your testimony, you seem to 
believe that any moment, any minute spent by anybody who is for 
the union, a union official is an opportunity cost. It's lost 
time. Is that correct?
    Mr. Kovacs. That is correct.
    Mr. Connolly. Well, that's a belief. That's not an 
analysis.
    Mr. Kovacs. And I would also--
    Mr. Connolly. Thank you. Ms. Barnes, I heard your 
testimony, and if I'm getting it right, here are your 
conclusions. There's inconsistent time and attendance metrics, 
right, they're using different systems, and not all of the time 
can easily be measured because of the lack of uniformity and--
but there are benefits to official time, correct?
    Ms. Barnes. Yes, we did find some benefits.
    Mr. Connolly. Right. Which of course would counter Mr. 
Kovacs'. You actually acknowledge there are benefits to be 
accrued by official time. The problem is making sure we're 
capturing all of that accurately. Is that correct?
    Ms. Barnes. That is correct.
    Mr. Connolly. Did you find any? Did your report conclude 
there was abuse of official time?
    Ms. Barnes. We didn't set out to even look at that.
    Mr. Connolly. All right. But if you stumbled upon it, you 
might mention it. I worked with GAO for a long time.
    Ms. Barnes. Yeah, that wasn't one of our objectives but--so 
we didn't conclude on that at all.
    Mr. Connolly. Find any evidence of it?
    Ms. Barnes. Not for--in this study.
    Mr. Connolly. Ms. McLeod, do you all have any evidence of 
massive abuse or a partial abuse or occasional abuse of 
official time?
    Ms. McLeod. No, sir.
    Mr. Connolly. I'm sorry?
    Ms. McLeod. No, we don't.
    Mr. Connolly. No. The testimony is no. Okay.
    So let me ask a different set of questions here, Ms. 
McLeod. You're going to have to speak up a little bit. So 32 
percent of the VA's employees are veterans. Is that correct?
    Ms. McLeod. I believe so, yes.
    Mr. Connolly. So that works out to 115,000 veterans serving 
veterans in the VA.
    Ms. McLeod. Yes.
    Mr. Connolly. Correct. So now I understand that there are 
9,000 vacancies currently at the VA. Is that correct?
    Ms. McLeod. I don't know the precise numbers.
    Mr. Connolly. How about you take a guess that's about 
right?
    Ms. McLeod. Sounds about right.
    Mr. Connolly. All right. So let's speculate or stipulate 
that's correct. If you want to come back to us and say, no, 
it's 9,721, you can do that, and I want to enter into the 
record, with unanimous consent, Mr. Chairman, the vacancies by 
State and exemption existing in the VA today.
    Mr. Hice. Sold.
    Mr. Connolly. Thank you, Mr. Chairman.
    So if there are 9,000 vacancies and about 32 percent, our 
veterans currently, you could say that in theory there are 
3,000 positions that could be filled by a veteran that won't be 
because of a hiring freeze. Fair enough?
    Ms. McLeod. Sure. Yes.
    Mr. Connolly. Okay. So we're talking about the opportunity 
cost of official time, but what we're not talking about is 
9,000 jobs, at least 3,000 of them logically filled by a 
veteran that are going to go begging, and these are for 
critical functions; are they not, Ms. McLeod?
    Ms. McLeod. Yes.
    Mr. Connolly. I would ask for the chart, if we've got it, 
to show the State chart of unfilled Veterans Administration 
jobs right now.
    Okay. It's a little hard to see, but for example, Georgia, 
254; Maryland, 164; North Carolina, your State, Mr. Cox, and 
our Chairman's, 343. So I guess I would just suggest that these 
vacancies are what we ought to be talking about, the hiring 
freeze and the damage of the hiring freeze can do to VA and to 
the service of our veterans.
    We say we're committed to the eating into the backlog, we 
say we're committed to trying to streamline services and fix 
CHOICE and make sure people are diagnosed in a timely fashion, 
and the problem isn't official time.
    The problem is these vacancies, and now we've got on top of 
that a hiring freeze that's going to make it, I think, doubly 
difficult to fill them.
    Ms. McLeod, does a hiring freeze complicate filling a 
vacancy?
    Ms. McLeod. Yes, I would think so.
    Mr. Connolly. You would think so.
    Mr. Cox, did you want to comment on that, since you've been 
the subject of discussion here on official time, and I kind of 
am bothered by the fact that we're ignoring the elephant in the 
room.
    Mr. Cox. The VA's new Secretary that I believe was 
confirmed unanimously the other day, which is a miracle to 
happen at this point in life, says there's 45,000 vacancies in 
the VA right now.
    Mr. Connolly. So I'm understating the problem.
    Mr. Cox. And that would be my assumption, and I couldn't 
tell you if that number is a fact of what they're saying is now 
frozen versus they are going to fill others, but Secretary 
Shulkin said there's 45,000 vacancies in the VA currently.
    Mr. Connolly. Wow. My time is up. I thank you, and I thank 
the panel for being here.
    Mr. Hice. I thank the gentleman. Just for the record, the 
President has exempted 94 positions at the VA for--from the 
hiring freeze. I have a memo here from January 27, 2017. I ask 
unanimous consent for it to be placed into the record, and 
without objection, so ordered.
    Mr. Connolly. The chair is--Mr. Chairman, I certainly do 
not object. Thank you for pointing that out. I was simply 
pointing out, it's great to have 94 exceptions, but we have 
9,000 vacancies, and Mr. Cox say it's even more.
    Mr. Hice. Thank you. The chair is now going to recognize 
himself. I am fascinated by this whole discussion. I've been 
heavily involved on this issue on official time for quite a 
long while myself. It's amazing to me that we could have 
government employees who have been hired to do one thing and 
they come on board, at the expense of the taxpayers, only to do 
something else, and all too often it's 100 percent of their 
time.
    I just came across in another, in fairness, another agency, 
but an individual who was hired to do a particular job. For 8 
years now they have not one day accomplished the job that they 
were hired to do and making well north of a $150,000 a year.
    This is to me just an unthinkable thing that's happening 
where people are exclusively doing union activity when they 
were hired to do something else day after day after day, month 
after month after month, and yet still being paid by the 
American taxpayer.
    Ms. McLeod, I would like to begin with you. 2012, the VA 
reported having 259 people who were on 100 percent official 
time. That has increased to almost 350 just in the last couple 
of years, from 3 years later to 2015. That's a big increase 
from 250, almost 100 people, more or less, let's just round it 
off, 90 people increase.
    How does the VA account for this increase? What's behind 
it? What was the necessary cause?
    Ms. McLeod. There is likely a few things behind it. 
Probably an increase in employees. There's probably also the 
reason being, you know, term negotiations.
    We've had some term negotiations on some master agreements, 
and so that would require official employees to be on official 
time to participate in those negotiations, local bargaining or 
negotiating on numbers and additions to 100 percent official 
time employees.
    Mr. Hice. Okay. Let's move on, because I've got a lot of 
questions, and I want to get to--so if you could get your 
answers brief and to the point, I would appreciate it.
    We also, during that time, obviously, have had veterans 
who've had tremendous needs waiting in long lines as has 
already mentioned, some even passed away waiting while we've 
had an increase of people going to official time 100 percent of 
the time, not to mention, those that are using significant 
amount of part-time to do official time.
    Does the Department restrict who can go on official time? 
In other words, are there certain occupations, carpenters, lab 
technicians, is there any certain group that is allowed 
official time or any group that is denied 100 percent?
    Ms. McLeod. The Department has no control over who the 
union decides will have the official time.
    Mr. Hice. [Presiding.] Okay. So anyone can, so anyone who 
requests it. Is that how it works?
    Ms. McLeod. Well, those people are chosen by the unions 
inside the agency to provide that work.
    Mr. Hice. Okay. All right. Last year, I joined Chairman 
Chaffetz and Meadows in sending a letter to the VA requesting 
official time data, and in reviewing that, I found some 
incredible information to me, such as there were 90 nurses who 
were on 100 percent official time. I found 3 addiction 
therapists, a certified respiratory therapist, 13 nursing 
assistants, 3 pharmacists, 6 pharmacy technicians. I even found 
a doctor who specializes in providing limbs to veterans who 
lost their limbs in the service to this country, in Orlando, 
Florida, a specialist, and he's giving 100 percent of his time. 
Have these individuals been replaced?
    Ms. McLeod. My understanding, sir, is that we backfill 
those positions where the individual's on 100 percent official 
time.
    Mr. Hice. You backfill them with new hires?
    Ms. McLeod. That's correct.
    Mr. Hice. So the American public is having to hire two 
people for the work of one. I mean, this is an outrage to me to 
think that this is taking place. Mr. Cox mentioned that the 
positive outcome--I see no positive outcome in having to hire 
two people for the work of one. Not that people doing union 
work don't accomplish some good, but positive outcomes? We're 
creating a bureaucracy that's all on the shoulders of the 
American taxpayer, and we're coming in here trying to convince 
ourselves that this is a good thing.
    Ms. McLeod, when you have an employee who is doing this, 
you were saying that you have to hire someone else to do the 
job that the first person was hired to do. Is that correct?
    Ms. McLeod. If that individual is on 100 percent official 
time and that particular occupation is necessary, the agency 
will backfill that position and hire someone.
    Mr. Hice. Okay. Mr. Kovacs, let me come to you. And I thank 
you for your work in this area as well. I think you share the 
same concern and outrage that I share and many of us do on 
this.
    Something else that I found stunning is that the Federal 
employee unions can actually lobby Congress while on official 
time so that they get paid by the taxpayers literally to lobby 
Congress. Is that accurate?
    Mr. Kovacs. Yeah, that is correct, on desired and pending 
legislation.
    Mr. Hice. Okay. Is that legal?
    Mr. Kovacs. Yes, that is legal, although I think--although 
the Federal Labor Relations Authority has deemed it 
appropriate, I don't know how it squares with being, you know, 
necessary and in the public interest.
    Mr. Hice. Mr. Cox, it's actually on you all's Web site that 
these on official time can lobby. Is that correct?
    Mr. Cox. There are certain issues that can be lobbied 
before Congress on official time that would deal with matters 
pending before Congress, such as, if you will remember, several 
years ago you adopted the advanced appropriations for the VA, 
the only agency that gets funded 2 years in advance. While many 
other agencies are now talking about how great an idea that 
would be, that would be an issue before Congress that many 
people would want to encourage and lobby for.
    Mr. Hice. Mr. Kovacs, to me it's pretty clear that current 
law prohibits Federal employees explicitly, they're prohibited 
from lobbying and engaging in political activity with the use 
of appropriated funds.
    Mr. Kovacs. Yes. The Anti-Lobbying Act does prohibit--
    Mr. Hice. Anti-Lobbying Act.
    Mr. Kovacs [continued].--prohibit Federal employees.
    Mr. Hice. So what am I missing here?
    Mr. Kovacs. So even though Federal employees on official 
time are considered in duty status, concerning pay, concerning 
lobbying, you know, they are not.
    Mr. Hice. And why are they not?
    Mr. Kovacs. That's what the Federal Labor Relations 
Authority has decided over the years in its decisions.
    Mr. Hice. Okay. My time has expired. I appreciate the 
others' sharing indulgence.
    The chair now recognizes Mr. O'Rourke for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Let me begin by thanking Ms. Barnes and the GAO for another 
excellent work product and helping us to make informed 
decisions in our jobs and the policies that we're working on 
and the decisions that we're making. So I greatly appreciate 
it.
    I wonder if you could begin by clarifying for me a 
statement made by the Chairman from North Carolina when he said 
that VA employees use more official time than any other 
government agency. The latest year for which we have reliable 
information is 2012, and I notice on page 1 of your report, the 
rate of official time at VA during fiscal year 2012 was lower, 
compared to several other large agencies, such as Treasury and 
Transportation.
    Can you explain the discrepancy between the Chairman's 
statement and your finding on page 1? If not, I'll take it for 
the record. I just want to understand it. I'm sure he does as 
well.
    Ms. Barnes. Yeah. I'll submit it for the record. We only 
looked at VA. There was another GAO study that looked more 
government wide.
    Mr. O'Rourke. Okay. Thanks.
    Is it Ms. McLeod, is that the appropriate way to say it?
    Ms. McLeod, thank you also for your work and your answers 
so far today. So my understanding, you said earlier that VA 
management cannot choose who it is that will serve in official 
time on behalf of the union and the employees that the union 
represents, but it can help set the percentage of time that is 
spent on these issues. Is that correct?
    Ms. McLeod. That's correct.
    Mr. O'Rourke. And you alluded to that happening on a local 
basis today, but perhaps the new Secretary will want to 
standardize that across the VA.
    Ms. McLeod. That's correct. It has been, at least the 
Office of Labor Management Relations' direction, that as we sit 
at the table at the national level and negotiate national level 
master agreements, that we've been putting some limitations on 
the number of 100 percent official time employees.
    Mr. O'Rourke. I share Chairman Arrington's concern about 
how long it has taken the VA to standardize its process to 
record official time. I think everyone here is deeply 
disappointed in that, frustrated by that. I notice in the GAO 
report that the VA is making a commitment to have this issue 
addressed, at least systematically, the IT infrastructure that 
you're using, by July of 2018. Is that a credible goal?
    Ms. McLeod. That's correct.
    Mr. O'Rourke. The VA is going to hit that. You're on the 
record saying VA by July 2018 will have a unified system which 
every employee using official time will use so that we have 
reliable information upon which to make our decisions?
    Ms. McLeod. That is what we are going to endeavor to do, 
yes.
    Mr. O'Rourke. Okay. Just to be clear on the record, you 
said you will try to do that, not that you will do that. I am 
for the record going to submit a request to the Secretary. I 
would like his response in writing, and I would be very happy 
to share it with the Committee. We absolutely have to have the 
VA deliver on that.
    I'll tell you, reading this, it's clear to me that this has 
not been a priority for the VA. The VA at the highest levels of 
leadership just has not cared about this issue. Otherwise, we 
would have one unified system. Otherwise, we'd have reliable 
data today in 2017, not dependent on information that's, at 
best, 5 years old. So I want to see a real commitment in 
writing on paper to which we can hold you and the Secretary 
accountable for. So I'll be looking for that.
    I would also like to say, Mr. Chairman, that I'm grateful 
to hear from almost every Member of this Committee their 
assurance that they are not opposed to union representation at 
the VA, that they see value in official time, that where we do 
have a problem is in accounting for that time and understanding 
how it is allocated, whether it's 100 percent or 50 percent. I 
think those are things that we can resolve and, again, issues 
that can be corrected with the appropriate leadership. And I'm 
again very glad to see that we'll have Dr. Shulkin at the helm 
as our new Secretary confirmed 100 to 0.
    Mr. Cox, finally, would you share with us, either 
anecdotally or through data, preferably, why it might be in the 
public interest to have someone spend 100 percent of their time 
on official time? Why does that make sense? I think that's a 
really legitimate question that people we represent are asking 
us.
    Mr. Cox. The VA is a very, very diverse organization that 
has lots of professions and occupations in it. The law requires 
for official time. There are medical center directors that have 
decided it would be better to have one person that that's what 
they're doing versus to have four or five people that's taking 
20 percent here, 20 percent there, 25 percent, because there is 
an orderly flow to the work that may happen, and you know that 
that's how you program and plan your work.
    Mr. O'Rourke. So if I could--and I'm sorry to interrupt 
you, just as my time expires, if I could sketch out a scenario, 
you have a VA director who has more demand than she has 
capacity, wants to maximize the workforce under her command and 
so says instead of me working with 15 different employees all 
working at varying percentages, there's one person that I'd 
like to go to who I can rely on 100 percent of the time to 
address issues of negotiation or training or workplace safety 
or other issues that are within the public interest and the 
interests of the veterans that we serve.
    Mr. Cox. Yes.
    Mr. O'Rourke. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes Mr. Wenstrup for 5 minutes.
    Mr. Wenstrup. Thank you, Mr. Chairman. Thank you all for 
being here today.
    You know, as a physician, I'm one of the many physicians in 
America that had the benefit of spending some time training in 
a VA, and I appreciate the opportunity to take care of veterans 
and to have that be a part of the training that I obtained.
    I got here 4 years ago, and this was before the situation 
at Phoenix broke, and I remember asking all the VHA 
administrators if any of them had ever been in private practice 
where quality and productivity were necessary elements to keep 
your door open, to be in the black, and none of them had. And I 
think that was a major deficit for our administration at that 
time because they don't know what they don't know.
    But on the subject of productivity, I would appreciate, Mr. 
Cox, if you could, for the record, send to me any products that 
the union has produced that addresses ways to increase 
productivity and patient care. So for the record, I would like 
to have that from you, if there is such an item.
    And I do feel for hospital administrators in this situation 
because they're trying to provide for patients and render 
patient care, and that needs to be a reliable source of 
caregivers. And their time has to be well-defined to when they 
are there and able to take care of patients, and that seems to 
be missing in this situation.
    And I'd like to address something too that Mr. Connolly 
brought up, and he made a point about the jobs for veterans, 
but let's keep in mind, these jobs exist because veterans need 
care. A secondary benefit would be that some people have jobs, 
but the first priority is that veterans need care, not because 
we need to create jobs for veterans. That's the primary 
mission.
    I have a question for you, Mr. Cox. Do your members pay 
dues?
    Mr. Cox. Those that choose to join pay dues. However, there 
is no requirement for anyone to--
    Mr. Wenstrup. Okay. So you have space within the VA, and 
that's paid for by the taxpayer?
    Mr. Cox [continued]. Yes, sir. And we're required by law to 
represent all employees and the bargaining unit--
    Mr. Wenstrup. Okay. I just asked you a question. The 
taxpayer pays for that space.
    Does the taxpayer pay for your copiers and everything else 
that you may need to have an office?
    Mr. Cox. That would depend upon what the union had 
bargained or negotiated either nationally or locally.
    Mr. Wenstrup. Essentially, yes then. If it's bargained for, 
I understand. That's a legitimate answer to me. But I just want 
to know if that's in the agreement right now, because I don't 
think that's the same for other unions throughout the country 
in many, many situations.
    Let me ask you this, Mr. Cox. Does the union have a mission 
statement, and especially a mission statement for VA employees?
    Mr. Cox. When you ask for a mission statement for VA 
employees, our mission statement, we support the VA also, and 
we're--
    Mr. Wenstrup. But you don't officially have a mission 
statement.
    Let me ask you this. Let me ask you the priorities. Because 
that's a yes or a no. If you don't have one, you don't have 
one. But let me ask you the priorities that may exist. If you 
were to put forth a mission statement, what would be the 
highest priority of who you're serving, for example? Are you 
serving the taxpayer, the veteran, or the union? Could you list 
those one, two, three for me, what you think the mission 
statement would look like?
    Mr. Cox. If you're asking for me to answer that particular 
question, that may be difficult. I would tell you that I 
believe any VA employee would tell you their first priority is 
to care for the veteran. And I would go back to Deputy 
Secretary Hershel Gober many years ago, that if we don't also 
care for the employees, we won't be able to care for the 
veterans, and many of the employees are veterans. And I think 
every employer wants that to be a good work environment and to 
be a good employer, to resolve problems in the workplace, make 
sure that people are treated fairly, promoted properly, and 
that there is a good merit system, a process. So I think they 
go hand in hand together, sir.
    Mr. Wenstrup. I think they certainly can go hand in hand. I 
just wonder if there's some analysis if that's actually what's 
taking place.
    And maybe, Mr. Kovacs, do you have some analysis of that or 
have you ever looked at that and created an analysis as to what 
the priorities seem to be?
    Mr. Kovacs. Well, I would say, unfortunately as the GAO 
report states, we really have no reliable data of, you know, 
how many hours of official time are being taken or what, you 
know, exact duties are being performed. You know, OPM, the most 
reliable study on it breaks it down into four categories: You 
know, midterm bargaining, term bargaining, dispute resolution, 
general labor management.
    Well, 75 percent of official time is all used on general 
labor management. I'm not sure exactly what that means and what 
activities take place. I would assume lobbying and going to 
union conventions would fall into that, but I don't know what 
else that would entail.
    Mr. Wenstrup. Thank you very much. And I just have a few 
seconds.
    I appreciate what you're saying, Mr. Cox, from the 
standpoint as a caregiver, you want an environment that can 
work where the person that's giving the care can render it 
effectively and work towards that means. But keep in mind that 
it's the veteran that we're there to take care of first, and 
that should be a priority. And when you're on the time of the--
on behalf of the veterans, that should be the priority.
    Thank you, and I yield back.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes Mr. Takano for 5 mines.
    Mr. Takano. Thank you, Mr. Chairman.
    My Republican colleagues have suggested that the 346 VA 
employees who use 100 percent official time are standing in the 
way of veterans' access to care, but I would suggest if we 
really care about improving veterans' timely access to quality 
health care, wouldn't it make sense for Congress to focus our 
efforts on giving VA the recruiting tools it needs to fill the 
over 45,000 current vacant positions in the VHA?
    Do you have a response to that, Ms. McLeod? Would we not 
better be focusing our attention on giving you the recruiting 
tools that you need to fill those 45,000 vacancies?
    Ms. McLeod. Sir, I mean, the VA would certainly appreciate 
being able to fill the vacancies that we have.
    Mr. Takano. Mr. Cox, do you have anything to add to that?
    Mr. Cox. Certainly. I believe everyone would benefit by 
filling those vacancies. Number one, we would see those wait 
lines go down. We would see veterans properly cared for and 
taken care of. We would see also the employment, if it's 45,000 
jobs, 30 percent veterans, we would see at least 15,000 
veterans get jobs. So I think the benefits of filling those 
jobs would compound themselves over and over.
    Mr. Takano. Because we're not talking about jobs created 
just for the sake of jobs, are we? We're talking about jobs 
that really are going to serve the needs of veterans, right, 
Ms. McLeod?
    Ms. McLeod. That's correct.
    Mr. Takano. You know, I read a big--you know, this 
ballyhooed thing about Carrier, we're saving 1,500 jobs in 
Indiana, but we have 45,000 jobs that are necessary to serve 
our veterans. Our veterans are being hurt because those jobs 
are not being filled. And I don't understand why this 
administration wants to put a freeze on employing people that 
are absolutely needed to help our veterans. The hiring freeze--
according to Comptroller General Dodaro, the hiring freeze has 
caused agencies to hire contractors, which was more expensive 
than hiring Federal employees, and it didn't reduce the size of 
the workforce. It caused agencies problems in implementing 
their missions, end quote.
    That's what I am scared of happening, is that this hiring 
freeze is going to cause us to rely on more expensive 
contractors, and actually we're not going to achieve any 
shrinkage in the number of people we need to serve our 
veterans.
    According to the VA, job applications at the VHA are down 
78 percent since 2014. Isn't the real problem that the VA needs 
from Congress is more tools to recruit more qualified providers 
to fill these vacancies? I think we need to streamline the 
hiring process.
    President Trump issued a Federal hiring freeze in January, 
but the VA Secretary has exempted already over 90 occupations 
from this freeze to protect the public safety. And most of 
these exempted positions are for health care providers in VHA, 
but no occupations in the VBA were exempted, leaving 763 
vacancies. These vacancies could be filled by veterans or 
veteran families, as you mentioned, Mr. Cox. At least one-third 
of our hires at the VA are veterans. But now these vacancies 
will remain unfilled. These will be 763 potential employees who 
will not be hired to help veterans get their benefits faster. 
The disability claims backlog is now over 100,000 claims, and 
the appeals backlog is over 600,000.
    How will these 763 VBA vacancies hurt veterans, Ms. McLeod?
    Ms. McLeod. The work that those individuals would be doing 
won't get done, and so veterans won't have those services.
    Mr. Takano. I would say 600,000 appeals backlog, 100,000 
claims in the disability backlog would imply to me that these 
employee--the categories in the VBA should be exempted as well, 
that this hiring freeze was highly, highly political and 
highly, highly expedient.
    How does the hiring freeze make it more difficult for 
current VBA employees to do their jobs, thus increasing the 
need for official time to resolve workplace challenges and 
disputes? Mr. Cox.
    Mr. Cox. Obviously, when people become stressed and more 
issues go on in the work environment, there is a greater need 
to resolve those disputes and to move forward, so the stress of 
working in VBA is very tough. My wife works for VBA, will 
retire the last day of this month, thankfully, but takes her 
job very, very seriously. And it is a stressful job because 
they understand there is a veteran at the end of that claim 
that deserves that claim and needs that claim, and they want to 
get it processed immediately. And they worry about getting it 
done before the veteran takes their last breath.
    Mr. Takano. Well, thank you. So my time is running out, but 
so amid all this stress, there does need to be a better 
accounting for official time, but this is the environment in 
which VA is being asked to track official time, but official 
time is definitely needed in terms of the added burden and 
stress that we have of a workforce that is woefully 
understaffed.
    I yield back, Mr. Chairman.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes Dr. Roe for 5 minutes.
    Mr. Roe. Thank you, Mr. Chairman.
    I think both sides of the aisle are trying to do what is 
best for veterans. And, Mr. Cox, I think when you were 
searching for what the mission statement was, I think Abraham 
Lincoln said it better than anybody: ``To care for him who 
shall have borne the battle.'' That's what our job is.
    And I can just tell you that the number of employees at the 
VA is not too little. When I got to the U.S. Congress in 2009 
and was sworn in to uphold the Constitution, there were about 
260,000 people that worked for the VA. Today, there are over 
360,000 people who work for the VA. And I wonder--and we've 
gone from a budget of around $97 billion to almost $180 billion 
in 8 years, while the rest of the discretionary budget has 
stayed basically flat. We took that money away from education 
and others to put it in veterans.
    And, basically, I'm not interested in how many people work 
for the VA. I'm looking for how hard and how well we fulfill 
that mission. Let me just share with you a frustration that I 
have. At a time when there are over 475,000 appointments 
scheduled 30 days or out for veterans' requests, we've got 
critical employees like one in Los Angeles, a physician making 
$212,000 a year who spends 100 percent of his or her time--I 
don't know what they are--but on official time, not seeing 
patients.
    Another whistleblower provided this information that shows 
that another emergency room physician at the North Chicago VA 
Medical Center is paid $240,000 and is currently 100 percent on 
official time. How do I explain that to a veteran when you've 
got a fully trained, board certified doctor, when you can't--
that's one of the problems, they're backed up forever to get 
in, how in the world do you explain that to people? And one of 
your members, a primary care doctor based in Los Angeles, 
$212,000, that is data that we have.
    So we understand, and I'm not saying--we certainly 
understand that there can be a union. I understand that. I grew 
up in a union household, so I understand that. But when you 
have time that you're paid to be a doctor, how does that help a 
patient who can't see that doctor? Anybody want to take that? 
You got a board certified doctor and you have no access to him. 
And we're short of providers. And I can tell you, when you've 
hired 100,000 people like the VA has since I've been in this 
Congress 8 short years, it is not for lack of personnel and not 
for lack of money. The taxpayers have provided for our 
veterans.
    Mr. Cox. Dr. Roe, and I enjoyed our meeting the other day, 
and I think you know our commitment to the VA. I also believe 
all of Congress understands that a union cannot discriminate 
against who runs for an office and who is elected to serve in a 
position, be it by profession, by color, by race, by 
nationality. We cannot do that. The law is very, very clear 
that we don't get to--
    Mr. Roe. Okay. I understand that. But how do I explain it 
to a veteran, you can't see a doctor? And guess what? It's not 
just the VA hospital. It's other hospitals that are short too 
of personnel. It's not just the VA. We're scrounging up nurses, 
RNs, at our local medical center now. We're having to offer 
bonuses and scholarships and other things to get these 
positions filled.
    So when you have these critical positions filled, and 
they're spending time doing completely union work when there's 
a needy veteran with a medical need out there, that is the 
mission. It's not to take care of the union and not to take 
care of me if I'm a provider to VA. It's to take care of the 
veteran.
    Mr. Cox. But I would go back to what I said earlier. To 
take care of the veteran, I think you do have to take care of 
the employee because you want a good work environment. And, 
yes, who that person may be, the value added, that physician, 
that nurse, into quality management, into innovative ideas, 
working with the VA hand in hand, Dr. Shulkin has personally 
asked AFGE for a physician to serve on various task forces to 
help move the modern VA initiative.
    Mr. Roe. We have a hospital that's right next door to our 
VA in Johnson City, Tennessee. It's nonunionized. They seem to 
function very well, and the complicated cases the VA can't 
handle, are sent right over to the hospital that's quarter of a 
mile away. The campuses abutt each other. So I don't buy that 
argument, and I don't buy that we don't have enough people 
working. There are critical shortages, yes, I totally agree 
with that. For instance, in psychiatrists and PTSD treatment, 
there are shortages.
    And I wrote the letter to the President requesting that he 
not freeze health care providers. I'm the one that wrote that 
letter, so I get that. But I tell you, we have some real soul 
searching to do in the VA right now to make it the organization 
it needs to be.
    I yield back, Mr. Chairman.
    Mr. Hice. I thank the gentleman.
    And for the record, the VBA told the House VA Committee 
earlier this week that they are overstuffed at the 105 percent 
level at this point.
    Let's continue on. The chair recognizes Miss Rice for 5 
minutes.
    Miss Rice. Thank you, Mr. Chairman.
    Ms. McLeod, is there any way for you to describe what 
benefits, having people work on official time, what benefits 
inure to people in a whistleblower situation?
    Ms. McLeod. I can tell you that we have heard, you know, 
inside the agency where employees who are represented by a 
union went through their union to provide information about, 
you know, whatever, you know, related to wait times or patient 
issues or other kinds of health care concerns that they've had, 
that they did use their union representative for that purpose 
to give them some amount of protection to do that.
    Miss Rice. And in your opinion, there's no question--I 
think, Mr. Cox, you would probably agree with this as well--
hopefully, everyone on the panel would agree, that if you have 
a productive workplace environment where patients are being 
cared for, but also employees' rights are being protected, that 
that actually will inure to the benefit of the treatment of the 
patients as well?
    Mr. Cox. Yes.
    Miss Rice. Yes.
    Ms. Barnes, so with the implementation of the new IT 
system, do you believe that that will rectify a lot of the 
problems that you saw in your analysis of this issue?
    Ms. Barnes. It's not clear, because even with the new 
system, there's another process that was being used at the time 
of our review to report the agency wide data. So for us, which 
is just right now, we'd have to wait and go back and do 
probably another review to look at that.
    Miss Rice. But that's a first step that you would 
recommend, obviously you're recommending, right?
    Ms. Barnes. Yeah, we did recommend that full 
implementation.
    Miss Rice. Okay. Well, I was happy that Chairman Meadows, 
before he had to leave, stated really unequivocally and very 
passionately his support for whistleblowers and whistleblower 
protections, which I was very happy to hear. And just as a 
comment, I just don't--I don't think this has to be an either/
or proposition that you have good care, but you can't take care 
of the employee, or you take care of the employee and you have 
bad care. I don't think that it has to be an either/or 
proposition. I think that there is a way that all of us working 
together can ensure that our veterans are given the treatment 
that they deserve and that employees, not just in the VA, but 
in any other organization, are respected and protected so that 
they can give the kind of care that our veterans need.
    So I don't think there's a lot of space between the sides 
of the aisle on that issue. And so I hope that we can 
transition to a conversation that recognizes the needs of 
protecting both as a way of enhancing the services that our 
veterans so richly deserve.
    Thank you all on the panel. And I yield back, Mr. Chairman.
    Mr. Hice. I thank the gentlewoman.
    The chair now recognizes Mr. Jordan for 5 minutes.
    Mr. Jordan. I thank the Chairman.
    Mr. Kovacs, define official time. How would you define it?
    Mr. Kovacs. It is paid leave given to Federal employees to 
perform union activities.
    Mr. Jordan. So they're not working for the taxpayer at that 
time. They're working for the union?
    Mr. Kovacs. Correct.
    Mr. Jordan. Okay. How many people at the VA are now on 
official time?
    Mr. Kovacs. We do not know that.
    Mr. Jordan. Most recent reports, do you have an idea?
    Mr. Kovacs. The OPM report doesn't cover--I believe in 
2012, there was about a million hours of official time was 
used.
    Mr. Jordan. Okay. So the total hours, just at the VA, was a 
million, and that was in 2012?
    Mr. Kovacs. Correct. And then it's also important to note, 
as the GAO report states, they really don't know how much 
official time is used.
    Mr. Jordan. Yeah. That's what the VA tells us.
    Mr. Kovacs. Correct.
    Mr. Jordan. Okay. So let's go back to this official time. 
You don't know the number of people on official time?
    Mr. Kovacs. No.
    Mr. Jordan. Do you know the number of people on partial 
time?
    Mr. Kovacs. No.
    Mr. Jordan. Do you know if there's--has there been a trend 
up in people on official time?
    Mr. Kovacs. Well, I can't tell you whether there's been a 
trend in individual employees, but, certainly, official time 
use at the VA since 2008 to 2012 has increased greatly. It's 
increased from 700,000 hours to, you know, a little over 1 
million in 4 years.
    Mr. Jordan. So in that 4 year from 2008 to 2012, we saw a 
dramatic increase in the hours of, quote, official time. Do you 
have any information across government, so not just for the VA, 
do you know how many people are in an official time category 
across the government?
    Mr. Kovacs. Unfortunately, we don't have reliable 
recordkeeping.
    Mr. Jordan. What about the most recent report? Does it give 
a number?
    Mr. Kovacs. No.
    Mr. Jordan. The number I have from OPM, I think it may be 
from the same report, was 3.4 million hours of official time 
across government.
    Mr. Kovacs. Oh, I thought you were talking about individual 
employees.
    Mr. Jordan. Go back to the hours.
    Mr. Kovacs. Yeah, yeah. 3.4 million hours.
    Mr. Jordan. Okay. But you don't have anything on the number 
of people across government in official time or partial time?
    Mr. Kovacs. No. No.
    Mr. Jordan. But we do know this: 3.4 million hours in 2012 
across government, and a third of that 3.4 million hours was at 
the VA alone?
    Mr. Kovacs. Correct.
    Mr. Jordan. Wow. That's amazing. That's amazing. We would 
like to get the number--and this is--if I understand this 
right, that's the number that the VA gave us that the GAO says 
they're not real sure they can trust.
    Mr. Kovacs. That is correct.
    Mr. Jordan. Okay. So 3.4 million hours of folks working 
official time, which is a fancy way of saying they aren't 
working for the taxpayer, they're working for the union, and 
almost one-third of that 3.4 million hours is folks at the VA 
who aren't working for the taxpayers, and more importantly, for 
the veterans, but working for the union. And we don't know if 
we can trust that, which means it may be even higher. Is that 
accurate?
    Mr. Kovacs. Yeah, that's absolutely--
    Mr. Jordan. And the trend between 2008 and 2012 was from 
700,000 hours to 1 million hours in that 4-year timeframe. So 
from 2012 to 2016, it's probably fair to say it went up as 
well?
    Mr. Kovacs [continued]. Correct.
    Mr. Jordan. We don't know, but--
    Mr. Kovacs [continued]. We don't know, and we don't have 
reliable--
    Mr. Jordan [continued]. And if the VA would tell us what it 
is, we probably couldn't trust it?
    Mr. Kovacs. Correct.
    Mr. Jordan. Wow. No wonder the veterans aren't getting the 
care they deserve, and no wonder the taxpayers are getting 
ripped off.
    Ms. Barnes, do you disagree with anything that we just had 
in that little dialogue I had with Mr. Kovacs?
    Ms. Barnes. Well, we didn't look at the '08 and '12 trends, 
but certainly in terms of the reliability of the data, I agree 
with that.
    Mr. Jordan. Yeah. It's not real reliable, the data you're 
getting from the VA, is what you're saying, right?
    Ms. Barnes. That's correct.
    Mr. Jordan. Okay. Mr. Chairman, this is something that's 
got to change. I appreciate you all having the hearing, but, 
look, this is unbelievable, unbelievable what we have here. So 
let's hope we can change it and get rid of all these folks on 
official time, which is--I love the way government works, a 
fancy name, official time. It sounds like they're actually 
working for the taxpayers, working for the veterans, when in 
fact it's just the opposite.
    So with that, I yield back.
    Mr. Hice. Would the gentleman yield?
    Mr. Jordan. I would be happy to yield to the Chairman.
    Mr. Hice. I mentioned earlier, we wrote a letter and the 
response of the letter to the VA, to answer the gentleman's 
question, over 1,900 people at the VA involved in partial or 
full-time, 100 percent official time at the VA, and that's 
straight from the VA itself, and over 340 of which are 100 
percent.
    The gentleman yields.
    The chair now recognizes Mrs. Watson Coleman for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    There are a lot of numbers floating around here. I'm going 
to try to get some clarity on some of them, but first I ask 
unanimous consent to enter into the record the statement for 
the record from Randy Erwin, national president, National 
Federation of Federal Employees to the Subcommittee on 
Government Operations of the House Committee on Oversight and 
Government Reform dated February 16.
    Mr. Hice. Without objection, so ordered.
    Mrs. Watson Coleman. Thank you.
    I'm looking at some numbers as well. First of all, Ms. 
Barnes, I appreciate the information that you've given us. What 
I've gleaned from it is that we're not quantifying or 
qualifying whether or not this activity that takes place where 
union members are counseling, negotiating, mediating, or 
whatever they're doing, employees, that's not the issue here. 
The issue, as you have stated, had to do with whether or not we 
are quantifying the time, accounting for the time 
appropriately. Okay. We're not disparaging the VA for 
information it is sharing. That's not what your report did, 
that's not the subject of this.
    Ms. Barnes. We took the information that the VA gave us and 
did some different checks and other things that we usually do 
to determine whether the information could be relied upon.
    Mrs. Watson Coleman. As you always do. You don't rely upon 
any unverifiable information when you're presenting your 
reports to Congress.
    The information I have here says that we have about 360,000 
employees of the VA, and less than 350 of them are 100 percent 
working in this category that we have been talking about today. 
Is that fairly accurate?
    Ms. McLeod. Yes, that's accurate.
    Mrs. Watson Coleman. Thank you. So that represents 1/10 of 
1 percent.
    I also have some information that says that the amount of 
time--this is 2012 so--the amount of time that VA employees 
spent on activities during official time represents just 1/500 
of the total number of hours of VA bargaining unit employees 
working. Does that sound about correct?
    Ms. McLeod. I haven't done the math, but it sounds--
    Mrs. Watson Coleman. Well, my point is that it doesn't 
really seem to be a big doggone deal when we think about all 
the other challenges facing the VA, and our need to present all 
the resources that our veterans need because they gave up for 
us something, and we need to be taking care of their needs.
    Now, I happen to have had experience in both the executive 
branch and the legislative branch, and I've worked with unions 
as a member and as a nonmember in management, but I recognize 
the importance of employees having access to some resource to 
deal with guidance, to deal with problems, to mitigate 
problems, to deescalate potential problems, to ensure that 
employees are treated fairly. And in this particular climate 
where whole agencies are being gagged, where we don't know what 
to expect from one day to the next from an administration that 
can't figure out where its loyalties lie, being able to have 
the kind of worker protections that unions provide is most 
vitally, vitally important.
    And so my concern would be that we ensure that there is 
continuity of policy and application of standards, that there 
is appropriate space available for these activities to occur, 
that there is a protection of privacy for the employee when 
this activity is taking place, but that we don't in any way, 
shape, or form discourage or create a cloud over this right 
that has already been established for employees in either the 
VA or any other place in government. And if we are concerned, 
and I believe it's a function that they are providing, the job 
that they are doing, is very much in the best interests of both 
the workforce and the employer. And if I'm going to talk about 
whether or not people should do exactly what they've been paid 
for, I had a question, my colleagues, as to why we don't bring 
Kellyanne Conway in here and ask her was she doing what she was 
paid for when she was huckstering the Ivanka Trump clothing 
line.
    And with that, I yield back. Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentlewoman.
    The chair recognizes the gentleman from Florida, Mr. 
Rutherford, for 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman.
    You know, having grown up in a law enforcement organization 
that had civil service protection and a union, I was always 
very supportive of both of those concepts. And then later when 
I was elected sheriff and actually became the CEO of that 
organization, I still supported civil service and union 
protection for my employees. Now, it made it difficult for me 
to get rid of bad employees, but I always felt like everyone 
should have that due process that, if I followed it as an 
administrator, I could get rid of bad employees, and so I 
supported that.
    Now, I am a little confused when I hear some of these 
numbers thrown around about the official time. We had official 
union time as well, and we had a pool of hours that could be 
drawn from. So, Mr. Cox, my question to you is, under the 
master agreement, I see where 25,000 hours are provided for 
union activity. Is that correct?
    Mr. Cox. You have the master agreement in front of you. 
Now, I'm the national president, so I'm not the president of 
the VA Council. I think that number is correct, but actually 
Ms. McLeod would probably be the better one to give you the 
exact figures on that.
    Mr. Rutherford. Okay. Is that number correct, 25,000?
    Ms. McLeod. I'm not sure. It sounds correct, but I'd have 
to see the master agreement.
    Mr. Rutherford. Okay. And then there are individual 
facilities that negotiate additional official time, correct?
    Ms. McLeod. That's correct.
    Mr. Rutherford. And how much is that across all VA 
facilities? What number of authorized pool time is there, 
official time, as you call it? How much time is there totally 
available? 25,000 plus the facilities, what is that number?
    Ms. McLeod. So it depends on which union and which master 
agreement you're speaking of. If you're talking about the AFGE 
master agreement, the number of hours is the floor, and then 
they can negotiate from there locally. If you're talking about 
some of the more recent contracts we've negotiated, we've 
developed--
    Mr. Rutherford. Okay. Let me cut because my time is running 
out. What is the total maximum usable official time within the 
VA, under all contracts?
    Ms. McLeod. I couldn't answer that.
    Mr. Rutherford. Nobody knows that number. Mr. Cox, surely 
you must know that number?
    Mr. Cox. No, sir, I don't know that number.
    Mr. Rutherford. So there's a million hours being used, and 
nobody knows what the pool is? We don't know what legally is 
available by contract?
    Let me ask you this, Ms. McLeod. Are you allowed to deny 
any--operationally, I don't know how this works within the VA, 
does a union representative come to you and ask for time to 
perform union activity?
    Ms. McLeod. Certainly, at the local facility, someone who 
wants to--
    Mr. Rutherford. Okay. So they tell you what that time is 
going to be utilized for, correct?
    Ms. McLeod. For the most part.
    Mr. Rutherford. Okay. And you can deny that time if it's 
not an appropriate union activity, I presume. Is that correct?
    Ms. McLeod. I'm certain they could, or if they need that 
individual to perform other duties.
    Mr. Rutherford. Now, can you deny them time if they go over 
and above the negotiated and agreed-to-by-contract pool of 
official time?
    Ms. McLeod. That's correct, yes.
    Mr. Rutherford. Have you ever done that?
    Ms. McLeod. I have not because I don't have employees who 
are in the bargaining unit who work in my office.
    Mr. Rutherford. Has any facility done that? Mr. Cox, are 
you aware of anyone who's been denied? It sounds to me like we 
grant time and nobody's even looking at the official pool.
    Mr. Cox. I am sure that people have been denied official 
time. Again, the AFGE has over 200 locals in the VA. There are 
other unions that represent employees in the VA.
    Mr. Rutherford. Thank you.
    Mr. Chairman, I know I'm over my time, but I'd like to 
request from Mr. Cox, if you could, send me in writing what the 
total official time pool is for VA, master agreements, and 
facility agreements. What is the total amount of time?
    Mr. Cox. Sir, I can tell you now I can't tell you that 
time.
    Mr. Rutherford. Who can?
    Mr. Cox. The VA would be the one that would have the 
ability.
    Mr. Rutherford. Ms. McLeod, then you can provide that?
    Ms. McLeod. We will provide that.
    Mr. Rutherford. Thank you. I'd be glad to get it.
    Mr. Hice. Would the gentleman yield?
    Mr. Rutherford. Thank you, Mr. Chairman.
    Mr. Hice. Would the gentleman yield?
    Mr. Rutherford. Yes.
    Mr. Hice. Mr. Cox, you said that there have been people 
denied official time. Could you provide a list of who that 
would be?
    Mr. Cox. I can only tell you anecdotal information because, 
yes, people are told, we can't spare you that day or it's not a 
convenient time.
    Mr. Hice. So you can't provide a list?
    Mr. Cox. No, sir, I can't provide that list, but, yes, it 
does happen, sir.
    Mr. Meadows. The gentleman yields back to the gentleman 
from Florida, and the gentleman from Florida's time has 
expired.
    So the chair recognizes himself for a series of questions, 
but I'll yield to the gentleman from Ohio for a brief comment, 
Mr. Wenstrup.
    Mr. Wenstrup. Thank you, Mr. Chairman.
    I just want to make one thing clear too in this dialogue. 
We have phenomenal caregivers in the VA system. We really do. I 
get very few complaints about caregivers. The system 
complaints, often. I will be the first to protect 
whistleblowers. They have come to me with some valuable 
information and insights. And I believe in a due process for 
people, and I also believe we want to create a non-hostile 
environment for people to work. But I just want to make sure 
that we're not unnecessarily taking away from valuable time and 
assets for taking care of our veterans.
    And with that, I yield back.
    Mr. Meadows. I thank the gentleman. I thank each of you for 
your testimony. My apologies for having to step out. Sometimes 
you have a number of issues that are going on simultaneously.
    Ms. McLeod, let me come to you, because what the GAO 
reported is that what the VA has could only be described as 
dysfunctional at best and nonexistent at the worst in terms of 
being able to track this. I mean, they can't even get an 
accurate count of official time. What is the VA doing to 
correct that?
    Ms. McLeod. The VA is implementing across the system the 
VATAS, which is VA the time and attendance system. That system 
has been improved so that we can appropriately track the use of 
official time. It has the categories--
    Mr. Meadows. So when will it be implemented?
    Ms. McLeod. Fully, by July 2018.
    Mr. Meadows. Okay. And why is it taking so long to do that? 
I mean, I can hire a private sector to get something done in 
half the time. Why is it taking so long?
    Ms. McLeod. I don't know, sir. It's not a program that my 
office is responsible for. I'm just not sure.
    Mr. Meadows. So who is responsible for it?
    Ms. McLeod. The Office of Management is the office that is 
rolling that time and attendance system out.
    Mr. Meadows. So how do you know for a fact that it will be 
implemented by 2018? I mean, if you're not implementing it, how 
do you know?
    Ms. McLeod. They have assured our office that it will be 
fully implemented.
    Mr. Meadows. All right. So how do you figure out if 
somebody is using 100 percent of the time, how do they account 
for their time?
    Ms. McLeod. They should be accounting for it at the local 
level. I mean, it's incumbent upon local--
    Mr. Meadows. They should be. I agree. I mean, we agree on 
that. Are they?
    Ms. McLeod. It is our belief that they are. They are 
reporting up to our office every year the amount.
    Mr. Meadows. Okay. So your sworn testimony, it is your 
belief that they are. So why does GAO have such a hard time 
figuring out the numbers? And this is not a new problem, Ms. 
McLeod, is it?
    Ms. McLeod. No, it's not.
    Mr. Meadows. And so why are we still here talking about it? 
Because Mr. Ross was here earlier, and when I was doing my 
research for all of this, it looked like it was a problem in 
2012 when he and Phil Gingrey was looking at this. Was it not?
    Ms. McLeod. I'm not sure about that.
    Mr. Meadows. In 2012, was it a problem?
    Ms. McLeod. I'm not sure. I suppose it could have been. I 
don't know that for sure.
    Mr. Meadows. Well, who does know? You brought staff behind 
you. Do they know?
    Ms. McLeod. I don't know that they know. You know, I can 
tell you--
    Mr. Meadows. So are they on official time?
    Ms. McLeod. No, sir.
    Mr. Meadows. Okay. So you brought staff that can't answer 
the question?
    Ms. McLeod. I can tell you that there was a report that GAO 
did in 2014, and in 2014 there were issues with our ability to 
consistently and accurately track official time. We weren't, 
however, the only, you know, government agency who experienced 
those concerns. And we've been moving, I believe, in the right 
direction with the implementation of VATAS.
    Mr. Meadows. You're moving in the right direction over a 4-
year period, if you're acknowledging 2014, over a 4-year 
period, how long does it take to figure out if somebody shows 
up for work and what they're doing? I mean, in the private 
sector, it takes me literally a very short period of time to do 
that, and even with the volume of employees that we have in the 
VA system, why can you not do that?
    Ms. McLeod. They're doing it on the local level, as far as 
we know. They're reporting that information--
    Mr. Meadows. Here's what I would like you to do, is for 
every one of your VA facilities, if they're doing it on a local 
level, they need to report back to this Committee on how 
they're keeping track of it. Because what I understand, they're 
taking surveys. Is that correct?
    Ms. McLeod. I believe that's one of the methods that 
they're using.
    Mr. Meadows. So we're saying fill out a survey on how much 
you may have spent on official time. Do you think that that's 
an accurate way, Ms. McLeod, to look at it?
    Ms. McLeod. It's not the most accurate way, no.
    Mr. Meadows. Mr. Cox, how would you say to do this?
    Mr. Cox. I don't know that I have an answer on how to do 
it, sir, because, again, the VA's computer systems and all are 
very, very complicated.
    Mr. Meadows. So you're saying that this is a computer 
system problem?
    Mr. Cox. Well, it may or may not be. I won't identify that. 
The VA is a very complex organization.
    Mr. Meadows. So if I get you the computer system of which 
tracking time and attendance we can probably do on the 
capability on an iPhone now, so are you willing to make sure 
that all your covered employees accurately report time to the 
VA in terms of official use?
    Mr. Cox. I believe that our employees, our members, are 
reporting their time. I believe the GAO study showed very 
clearly that--
    Mr. Meadows. That's not the question I asked, Mr. Cox. Now, 
we don't have a problem with communication because we don't 
need an interpreter, but the question I asked is if I give you 
the ability, will you require all your members to properly 
document where they're spending their time?
    Mr. Cox. I think our members already do that, sir.
    Mr. Meadows. 100 percent of them? Is that your sworn 
testimony?
    Mr. Cox. They report to their managers, they certainly do, 
sir.
    Mr. Meadows. I didn't say--reporting time and reporting to 
a manager are two different things. So let me ask you this: Is 
picketing part of official time?
    Mr. Cox. No, sir, it is not.
    Mr. Meadows. Okay. So you know in North Carolina that you 
had a president of part of your union that was out picketing, 
and she is 100 percent official time, at 11 o'clock on a 
Thursday.
    Mr. Cox. Did you check her record to see if she possibly 
took annual leave?
    Mr. Meadows. Well, she didn't have a record, you know, 
because--yeah, she could have had leave.
    Mr. Cox. Because frequently, our members, if they do those 
type activities, take annual leave.
    Mr. Meadows. Do they always do that?
    Mr. Cox. They are supposed to, and we train them and we 
tell them that, sir.
    Mr. Meadows. All right. And so you're saying that she was 
actually on annual leave when she was picketing?
    Mr. Cox. I can't speak for that individual because I do not 
know her time and attendance. I can tell you the instructions 
AFGE gives is that those type activities--
    Mr. Meadows. Do you see why we have a problem with 
oversight, though, Mr. Cox?
    Mr. Cox. Yes, sir, I do.
    Mr. Meadows. And do you see why we need to have a proper--
because here's the thing. I will defend your right to be able 
to use official time. But what I will not defend is people 
being on it 100 percent of the time.
    When was the last time your contract was negotiated, Mr. 
Cox?
    Mr. Cox. The contract with the VA was negotiated, probably 
it was signed maybe about 3 or 4 years ago.
    Mr. Meadows. 2011. I knew the answer. I was just waiting 
for you.
    Mr. Cox. 2011.
    Mr. Meadows. All right. So--
    Mr. Cox. Actually, sir, and if you're aware of the fact, 
AFGE is a very large organization. I do not personally 
negotiate all those contracts.
    Mr. Meadows. But this is not your first rodeo. You've been 
reelected.
    Mr. Cox. No, sir, it's not my first rodeo.
    Mr. Meadows. So what I'm saying is, is that if you do not 
have--do you have a current contract?
    Mr. Cox. I'm sure in our office that we have it.
    Mr. Meadows. Are you operating under the 2011 terms?
    Mr. Cox. If you're telling me that, I'm sure that we are, 
sir, because I delegate those responsibilities down to councils 
that operate--
    Mr. Meadows. Ms. McLeod, are they operating under 2011 
terms?
    Ms. McLeod. Yes.
    Mr. Meadows. All right. So let me ask you this, Mr. Cox. 
Assuming that 100 percent of this official time is used for 
negotiations, is that what part of official time would be used 
for, grievances--
    Mr. Cox. It would be part of it. I would say in the VA, 
sir, a lot of official time is spent in quality management, 
improving work processes.
    Mr. Meadows. All right. Well, I was afraid you were going 
to go there, Mr. Cox, and so let's take Salisbury. You've got 
more people there in Salisbury on 100 percent time, and yet 
we've had a backlog. So the quality of care in Salisbury pales 
in comparison to Charles George VA in my district. As you know, 
Charles George--I'm a huge fan of the VA. Ms. Breyfogle does a 
great job. And let me tell you, all those employees at the VA, 
they are doing a great job.
    But the problem is, official time, they don't have anybody 
on 100 percent in Salisbury who has a real problem with 
backlog, has 6 people on 100 percent. Can you explain how they 
are focused on quality at Salisbury with official time? There 
is no correlation, Mr. Cox.
    Mr. Cox. Sir, I would say part of those questions would be 
more appropriately directed to the director of the Medical 
Center at Salisbury.
    Mr. Meadows. Well, no, you just went with your sworn 
testimony, Mr. Cox.
    Mr. Cox. Yes, sir.
    Mr. Meadows. And you said that all this official time is to 
drive quality. That's what you just told me.
    Mr. Cox. We do a lot of quality work.
    Mr. Meadows. How much of it?
    Mr. Cox. I can't give you answers on all of that, sir.
    Mr. Meadows. Why can't you give me an answer?
    Mr. Cox. Because the VA is a very large organization--
    Mr. Meadows. Okay. Mr. Cox, you have now come to the crux 
of the matter, and so let me be blunt. The time for proper 
accounting is now.
    And so my charge to you, Ms. McLeod, and to you, Mr. Cox, 
is what we're going to do is start to look at some direct 
correlations. There is no direct correlation in terms of the 
amount of official time with regards to grievances or quality. 
I can't find any linear correlation there. So until you can 
show me that official time can be directly correlated to the 
quality of health care that our veterans deserve, we've got to 
reform it. Wouldn't you agree with that, Mr. Cox, that if 
they're spending time and it's not actually producing results, 
we need to change it?
    Mr. Cox. I think that you're trying to maybe phrase the 
question to get an answer from me, Mr. Chairman, that I'm 
probably not going to answer for you. I believe clearly--
    Mr. Meadows. Well, you have to answer it. So I mean, you 
may not answer it the way I want you to, but your sworn 
testimony.
    Mr. Cox. And I am giving you an answer, sir. Certainly, I 
believe official time contributes to the quality of care of the 
veterans at the VA.
    Mr. Meadows. Okay. Here's what I'm asking you to do--
    Mr. Cox. Now, if you're looking for anecdotal things--
    Mr. Meadows [continued]. No, no. I'm asking you for 
qualitative data. I don't care about stories.
    Mr. Cox. We are glad to work with the VA, and I've done 
that with the VA over and over again. I met with the chair of 
the VA Committee the other day, and we will work continuously 
to work to improve the care of veterans.
    Mr. Meadows. All right. So here's my request of you. My 
request of you is, I need a direct correlation between the 
amount of official time and a direct result in terms of 
training and quality. How long will it take you to get me that 
kind of direct correlation from your members?
    Mr. Cox. I can't give you an answer today.
    Mr. Meadows. What's a reasonable time?
    Mr. Cox. I will get back with you.
    Mr. Meadows. Sixty days.
    Mr. Cox. I will give you--I will be glad to respond and to 
give you an answer, sir. It may not be the answer you want, but 
I will give you an answer.
    Mr. Meadows. So your response is you're willing to give me 
a direct correlation between official time and the results of 
that official time in 60 days?
    Mr. Cox. I am certainly telling you I will give you an 
answer, sir.
    Mr. Meadows. That's not an answer to my question. You're 
going to have to--you can pick the timeframe, but you're going 
to have to give me a response to that.
    Mr. Cox. And before I can give you an answer on the 
timeframe, I certainly would need to consult. There's over 200 
locals and probably a quarter of a million people that AFGE 
represents.
    Mr. Meadows. All right. So here's my charge to you, is in 
60 days either you get me that or you get a very detailed 
explanation on why you can't get me that.
    Ms. McLeod, are you willing to do that as well?
    Ms. McLeod. Yes.
    Mr. Meadows. All right. Thank you both.
    I'm going to go ahead and recognize Mr. O'Rourke for his 
closing statement at this point.
    Mr. O'Rourke. Thank you, Mr. Chairman, and thank you again 
for holding this hearing.
    And I got to tell you, while we may not agree on all our 
conclusions about the issues at hand, I think we share a common 
interest and goal in ensuring every veteran is served and 
treated with the utmost dignity and respect, gets the greatest 
quality of care, and the best outcomes.
    I also share your frustrations. It's inexplicable that we 
have gone this long without reliable data on how official time 
has been measured and how it has been used. It prevents us from 
being able to answer your question about determining the value 
categorically of that official time.
    I've also heard you and other Members from both sides say 
that they are not opposed to public sector unions or the 
representation by those unions of employees at the VA and that 
they are not inherently opposed to official time, and I'm 
encouraged by that because this GAO report shows from both VA 
employees and by the management that are directing those 
employees and are fulfilling our most sacred commitments that 
they see value in this.
    There are anecdotes pointed out, whether it's improved 
scheduling for nurses, or as we mentioned earlier, including 
substance abuse counseling in our mental health care treatment 
regimens for veterans who desperately need that, ensuring that 
our VA medical centers are operating more effectively and 
efficiently, resolving disputes between management and 
personnel in a more efficient manner so it doesn't drag on, it 
does prevent the effective delivery of care to our veterans. 
Those are all things that I would point to that I know official 
time proves its value in.
    I would also say that it's U.S. law, going back to the 
Kennedy administration, reaffirmed in Nixon and every 
successive Congress and administration since then that we find 
public value in this. Why do I say this? Because some folks 
today have talked about official time as though it's some 
shameful act that we must hide or cover up for or apologize for 
using more than a certain percentage of our time to complete.
    If we agree, and this is a good question for all of us to 
resolve for ourselves, for our constituents, and for the 
country, if we agree official time has value, then we can move 
on to the other questions about how we measure that value, how 
we measure the amount of time spent on official time, and what 
it does in the delivery of governmental services, in this case, 
care for veterans. If we don't believe in the value of official 
time, if we think it's a scam and a fraud, well then that's a 
decision that we can make as well.
    I happen to think, as has almost every Congress and 
Government of the United States since the Kennedy 
administration that there's real value in this in delivering 
the care that veterans depend on from the VA. Whether it's the 
National Cemeteries Administration, the Veterans Benefits 
Administration, or the Veterans Health Administration. We just 
need to do a better job of measuring that.
    When you were out of the room, I asked Ms. McLeod to commit 
to delivering on the VA time accounting system for official 
time by July 2018, as is mentioned in the GAO report. She's 
unable to do that on the record today, so I'm going to ask in 
writing from the Secretary himself to provide that. I'll share 
his answer to the Committee, because I agree with your 
frustration that we're not going to be able to get the answers 
to these questions without accounting for that time.
    I'll also add for the record that every recommendation made 
by the GAO in this excellent report was accepted by the VA, and 
we're going to hold them accountable. That's our job, and we 
need to do it.
    Lastly, I'll end where I began the hearing today. Very 
encouraged in President Trump's nomination and the Senate's 
confirmation of Dr. David Shulkin as our VA Secretary. I know 
that so much of what we want to see rests on his shoulders. I 
know he's capable of doing this. With our assistance in 
oversight, I fully believe that he will, and I look forward 
with working with you to make sure that we get this done.
    So thank you for holding the hearing today.
    Mr. Meadows. I thank the gentleman from Texas. The chair 
recognizes the Chairman of the Subcommittee, the gentleman from 
Texas, Mr. Arrington.
    Mr. Arrington. Thank you, Mr. Chairman, and I appreciate my 
Subcommittee Ranking Member's request for a commitment on 
delivering the tracking system on the designated time.
    There is the law and there is what's right, and they are 
not always the same. And I had a law professor at Texas Tech 
that used to talk about, we all have an ain't-right meter in 
everybody. And I can tell you, at least in West Texas, but I 
bet 99 percent of the people in this room, when we discuss 
these issues of not being able to track the time and allowing a 
taxpayer-funded Federal employee to spend 100 percent of their 
time on union activities, I bet your ain't-right meter is 
pegged just like mine.
    It's just not right, especially with the context of all the 
challenges to meet the needs of our veterans. I had a lady last 
night introduce me. I was surprised that she introduced me and 
bragged on my time or my--my appointment, rather, on the 
Committee, and she cried, and she said: Please, please make 
sure that we are served well. And I just can't, in good 
conscience, tell her in this case that she is.
    According to the AFGE, Mr. Cox, representational work 
includes, quote, ``flexible work hours, developing telework 
practices, and providing workers with a voice in determining 
working conditions.'' While I appreciate the need for that, 
where's the voice for the veteran? Where's the voice for the 
veteran in determining the conditions under which they receive 
excellent service and care? Where's the voice in your process 
for the taxpayer to sit at the table and say, this ain't-right 
to have 100 percent of somebody's time spent on union 
activities when hardworking middle class, working class folks 
from West Texas are paying the freight.
    Thank you for your time, thank you for your insights, and 
thank you, Mr. Chairman. I yield back.
    Mr. Meadows. I thank the gentleman from Texas.
    I want to thank all of you.
    I want to remind you, as many of the Members have said that 
they've asked questions for the record that need for you to get 
back to them on, and so you have 2 weeks to respond to this 
particular Committee for supplying answers to those questions, 
and so I would like to mention that.
    Let me close by saying this: Mr. O'Rourke and I agree that 
there is--the official time, certainly, is of benefit and has 
its useful tool, but just like with anything, when used in 
excess, it does become abusive and at the expense of something 
else.
    And so Mr. Cox, let me be very clear, when I'm looking at 
the quality of health care for the veterans served out of 
Salisbury versus the quality of care of the veterans served out 
of Charles George and the amount official time that's spent in 
Salisbury versus the amount of official time that's spent in my 
district, there is no correlation. In fact, Charles George is 
one of the best, if not the best, VA hospital in the system.
    And so to suggest to this Committee that 100 percent 
official time is sometimes somehow providing a result in 
Salisbury, North Carolina, the superior to Asheville, North 
Carolina does not correspond to your argument here today.
    So here's what I'm going to do, Ms. McLeod, and you need to 
make sure that we look at this. I'm looking forward to both of 
your responses, but we're going to go from this Committee to 
some of the facilities, and we're going to ask the hard 
questions about the official use and how much training and 
quality support has actually been there, because we can't 
afford to get this wrong, and quite frankly, we've been getting 
it wrong for far too long.
    And so today is a somber moment in terms of what you want 
to argue about in terms of official time, but it really comes 
down to one thing. We have a responsibility to serve our 
veterans, and any abuse of a system is not only not tolerated 
but is going to be looked at in such a finite way that we will 
correct it, and I look forward to your recommendations on how 
we correct it, Mr. Cox, and how we make sure that it's fair and 
equitable, because I'm sure that you're not suggesting here 
that we don't serve our veterans properly. Is that correct?
    Mr. Cox. I think we take good care of our veterans, sir.
    Mr. Meadows. Well, I've got a lot of veterans who would 
disagree with you, Mr. Cox.
    And so with that, I want to thank you all for being here 
for your testimony, and if there is no further before the 
Subcommittees, they stand adjourned.

    [Whereupon, at 2:45 p.m., the Subcommittees were 
adjourned.]




                            A P P E N D I X

                              ----------                              

                Prepared Statement of Cindy Brown Barnes
                            UNION ACTIVITIES
VA Should Improve the Way It Tracks the Amount of Official Time Used by 
                             Its Employees
    Chairmen Arrington and Meadows, Ranking Members O'Rourke and 
Connolly, and Members of the Subcommittees:
    I am pleased to be here today to discuss our January 2017 report on 
the use of official time and space for union representational 
activities at the Department of Veterans Affairs (VA). \1\ The Federal 
Service Labor-Management Relations Statute allows federal employees to 
use official time to perform certain union representational activities, 
such as negotiating a collective bargaining agreement and processing 
grievances, in lieu of their regularly assigned work. \2\ Employees 
using official time for such activities are treated as if they are in a 
duty status and paid accordingly. According to a 2014 Office of 
Personnel Management (OPM) report, the amount of official time used by 
federal employees for union representational activities increased from 
approximately 2.9 million hours to over 3.4 million from fiscal year 
2008 to fiscal year 2012. \3\ For VA in particular, the OPM report 
shows that unions represented over 250,000 bargaining unit employees in 
fiscal year 2012, and these employees spent about 1.1 million hours 
performing union representational activities on official time. \4\ VA 
has negotiated master agreements with five national unions-National 
Association of Government Employees, American Federation of Government 
Employees, National Nurses United, National Federation of Federal 
Employees, and Service Employees International Union.
---------------------------------------------------------------------------
    \1\ GAO, UNION ACTIVITIES: VA Could Better Track the Amount of 
Official Time Used by Employees, GAO 17 105 (Washington, D.C.: Jan. 24, 
2017).
    \2\ Under the statute, official time is provided as a statutory 
right for such activities as negotiating collective bargaining 
agreements and authorized participation in proceedings before the 
Federal Labor Relations Authority, but for other purposes allowed under 
the statute must be negotiated between the agency and the union in an 
agreed-upon amount deemed reasonable, necessary, and in the public 
interest. Official time may not be used for internal union business, 
such as membership drives or collecting dues. See 5 U.S.C. Sec.  7131. 
Throughout this statement, we use the term ``representational 
activities'' to refer to those union activities for which employees may 
use official time.
    \3\ Office of Personnel Management, Labor-Management Relations in 
the Executive Branch (October 2014). In addition, GAO previously 
reported on the extent to which 10 selected agencies used official 
time, including the Department of Veterans Affairs, and the report 
includes fiscal year 2013 official time data for selected agencies. See 
GAO, Labor Relations Activities: Actions Needed to Improve Tracking and 
Reporting of the Use and Cost of Official Time, GAO 15 9 (Washington, 
D.C.: Oct. 23, 2014).
    \4\ According to the 2014 OPM report, the rate of official time at 
VA during fiscal year 2012 was lower compared to several other large 
agencies such as the Departments of the Treasury and Transportation. 
The rate of official time use indicates the number of official time 
hours expended per bargaining unit employee and allows for meaningful 
comparisons of official time usage among agencies.
---------------------------------------------------------------------------
    My statement summarizes the findings from our January 2017 report, 
which addresses (1) the extent to which VA tracks official time, (2) 
what is known about the amount of designated space used for union 
representational activities at selected VA facilities, and (3) the 
views of VA managers and union officials on the benefits and challenges 
of employees using official time.
    In that report, we reviewed official time data provided to us by VA 
for fiscal years 2014 and 2015, which were the most recent years for 
which data were available. We assessed the reliability of the data by 
reviewing relevant agency documentation about the data and the systems 
that produced them and interviewing knowledgeable agency officials, 
among other steps. Based on our assessment, we found the data were not 
sufficiently reliable to determine the amount of official time used by 
VA employees and the purposes for which it was used. As such, data we 
present in our report in this regard are for illustrative purposes 
only. We also selected a nongeneralizable sample of five VA facilities 
in four states based on the number of bargaining unit employees at the 
facilities and to ensure representation from the three VA 
administrations, as well as from the different unions representing 
employees at VA. \5\ We reviewed collective bargaining agreements (CBA) 
at the national level and local agreements for the selected facilities; 
VA policies and guidance; and relevant federal laws, regulations, and 
government standards for internal controls. \6\ We also analyzed VA 
information on designated union space, which we determined was 
sufficiently reliable for our purposes. In addition, at each of the 
five selected facilities, we interviewed officials about how official 
time is recorded at the facility level, and we held group interviews 
with five groups of VA managers and five groups of union officials to 
obtain their views on the benefits and challenges of official time. \7\ 
We also interviewed officials from five unions at the national level 
and officials at VA and OPM. A more detailed explanation of our 
methodology is available in our full report. The work upon which this 
statement is based was conducted in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \5\ VA is organized into three administrations-the National 
Cemetery Administration, the Veterans Benefits Administration, and the 
Veterans Health Administration.
    \6\ See GAO, Standards for Internal Control in the Federal 
Government, GAO 14 704G (Washington, D.C.: September 2014).
    \7\ At most facilities, we interviewed more than one group of local 
union officials. For purposes of discussing views on the benefits and 
challenges of employees using official time in our report, we 
considered the responses across all of the groups of local union 
officials we interviewed at each facility and refer to the groups 
collectively as one group for each facility.

VA Has No Standardized Way for Facilities to Record and Calculate 
    Official Time, which Hampers Its Ability to Accurately Track the 
---------------------------------------------------------------------------
    Amount of Official Time Used Agency-Wide

    There is no standardized way for VA facilities to record the amount 
of official time employees use for representational activities because 
there are currently two time and attendance systems being used across 
the agency that capture this information differently. In 2013, VA began 
implementing its new Veterans Affairs Time and Attendance System 
(VATAS) at some facilities to replace its older system, the Enhanced 
Time and Attendance (ETA) System. VA expects to complete its rollout of 
VATAS in July 2018, and as of September 2016, approximately 50 percent 
of VA facilities and about one-third of employees (120,000) had 
transitioned to VATAS. For the five facilities we selected, three had 
transitioned to VATAS, and two were still using ETA at the time of our 
visits. \8\ While VATAS provides specific codes for timekeepers to 
record time for various union representational activities, according to 
VA officials, ETA lacks such codes, and timekeepers can record the use 
of official time for union representational activities under the 
remarks section of employees' time and attendance records. VA officials 
further said recording time this way does not always make clear the 
purpose for which official time is being used. Beyond these 
inconsistencies in recording official time in VATAS and ETA, we found 
that three of the selected facilities did not record official time in 
either of these systems. Two of the facilities under VATAS maintained 
records on the use of official time outside the system, and the one 
facility under ETA did not document the use of official time at all. 
The inconsistent recording of information raises questions about VA's 
ability to monitor the use of official time.
---------------------------------------------------------------------------
    \8\ We conducted our interviews with selected facilities from May 
2016 to July 2016. One of the two facilities using ETA was scheduled to 
implement VATAS soon after the time of our interviews.
---------------------------------------------------------------------------
    VATAS could help standardize the way individual facilities record 
information on official time and improve VA's ability to monitor its 
use; however, we also found VA has not provided consistent training to 
employees on how to record official time in the new system. The lack of 
consistent training on how to record official time in VATAS is due in 
part to the fact that VATAS is being implemented in phases and training 
is being updated throughout the course of implementation. For instance, 
timekeepers and other officials from the three selected facilities that 
had implemented VATAS said that recording official time was not covered 
during their VATAS training, and these facilities were not using the 
codes in VATAS to record official time because they were not aware of 
them. As a result, these facilities continued to use different 
approaches to record official time and documented different 
information. According to federal internal control standards, 
management should communicate quality information that enables 
personnel to perform key roles, and it should provide appropriate 
training to personnel for carrying out their responsibilities. \9\
---------------------------------------------------------------------------
    \9\ GAO 14 704G.
---------------------------------------------------------------------------
    In 2016, VA took several steps to provide better guidance to 
facilities on how to record official time in VATAS, including providing 
face-to-face training and making the information available on the VA 
network. We recommended in our January 2017 report that the Secretary 
of Veterans Affairs direct the Assistant Secretary for Human Resources 
and Administration to increase efforts to ensure timekeepers at all 
facilities receive training and consistent guidance on recording 
official time in VATAS. VA concurred and said it has revised its policy 
to include specific directions to facility human resource offices to 
begin recording official time in VATAS once it has been implemented at 
the facility. VA set a target completion date of April 2017 in response 
to our recommendation.
    To provide agency-wide official time data to OPM, which reports on 
the use of official time for representational activities government-
wide, VA's Office of Labor-Management Relations (LMR) annually collects 
and compiles data from individual facilities and shares the aggregated 
data with OPM. VA's Office of LMR uses its LMR Official Time Tracking 
System to obtain information from individual facilities on the amount 
of official time used by employees. \10\ The LMR system is separate and 
distinct from VA's two time and attendance systems and provides the 
Office of LMR with a centralized way to collect official time data from 
individual facilities, among other purposes. To collect official time 
data, each year the Office of LMR sends an email to facilities with a 
link to access the LMR system. A management representative at each 
facility then manually enters the information into the LMR system. \11\
---------------------------------------------------------------------------
    \10\ According to VA officials, the LMR Official Time Tracking 
System is also used to track agency-wide labor-management relations 
activities more broadly at the national level, including the 
development of related directives and policies.
    \11\ Facilities may submit more than one official time entry in the 
LMR Official Time Tracking System if multiple unions represent 
employees at the facility.
---------------------------------------------------------------------------
    The actual amount of official time used by employees across VA 
cannot be easily determined because VA offers facilities various 
options for calculating and reporting official time data in the LMR 
system. Federal internal control standards prescribe that management 
design control activities so that events are completely and accurately 
recorded. \12\ VA allows facilities to use written records, estimates, 
samples, or surveys of official time hours used, or any combination of 
these methods, to determine the amount of official time used by 
employees at their facility when entering information into the LMR 
system. These different methods of calculating official time result in 
inconsistent information. Without reliable information from facilities 
on official time, VA management cannot monitor the use of official time 
and manage VA's resources effectively. We recommended that prior to the 
agency-wide implementation of VATAS, VA standardize the methods used by 
facilities for determining the amount of official time used by 
encouraging facilities to rely on time and attendance records. VA 
concurred and said its Office of Human Resources and Administration 
will develop a memo directing facilities to rely on time and attendance 
records when calculating the amount of official time used by employees 
at the facility level and set a target completion date of April 2017.
---------------------------------------------------------------------------
    \12\ GAO 14 704G.
---------------------------------------------------------------------------
    Once implemented agency-wide, VATAS could provide VA with an 
alternative to collecting official time data through its LMR system. An 
official from VA's Financial Services Center (FSC) stated that FSC 
currently has the capability to generate reports in VATAS on the amount 
of official time used at individual facilities. The official added that 
once all facilities are using VATAS, FSC could generate one report with 
official time data, thereby eliminating the need for using the LMR 
system. However, an official from VA's Office of LMR was not aware of 
FSC's ability to produce such reports and said that the Office of LMR 
planned to continue using the LMR system to collect data on official 
time. If VA does not obtain more consistent data on the amount of 
official time used by employees, it will not be able to accurately 
track the amount of official time used by employees to ensure public 
resources are being used appropriately. In preparation for the full 
implementation of VATAS, we recommended that VA take steps to 
transition from using the LMR system to VATAS to collect and compile 
information on the amount of official time used agency-wide. VA 
concurred and said the Office of LMR will coordinate with FSC to 
collect and compile data on official time and set a target completion 
date of December 2018.

Designated Space for Union Representational Activities Comprised Less 
    Than 1 Percent of the Overall Space at Selected Facilities

    We found that the amount of designated space for union 
representational activities at selected facilities varied, but in all 
cases comprised less than 1 percent of the overall space available. 
Designated space for representational activities at the five selected 
facilities consisted primarily of office space, which was occupied by 
one or more union officials. \13\ In addition to office space, 
designated space for union activities included conference rooms and 
storage rooms at some of the selected facilities. Further, VA provided 
unions at all five selected facilities with basic office furniture and 
equipment, such as desks, chairs, filing cabinets, computers, printers, 
and fax machines. In some cases, union officials said they purchased 
additional office equipment using union funds.
---------------------------------------------------------------------------
    \13\ At a selected facility with two local unions, one of the 
unions did not have designated space. Rather, that union's president 
had her own office where she performed both union representational 
activities and non-union job duties. This union president was scheduled 
to spend 100 percent of her worktime on non-union job duties and 
requested approval from her supervisor to use official time on a case-
by-case basis.
---------------------------------------------------------------------------
    Union officials from three of five groups we interviewed said that 
limited space for representational activities was a challenge. 
Specifically, union officials from those three groups said there was 
not always sufficient privacy to ensure confidentiality for employees, 
especially in cases where designated space for representational 
activities was shared by multiple union officials. A VA official from 
the Office of LMR said that, in general, certain VA facilities may have 
space constraints depending on where they are located, the types of 
services provided, and the number of veterans served. VA does not track 
information on the costs associated with unions' use of designated 
space across the agency, and we were not able to obtain consistent 
information on costs from selected facilities.

VA Managers and Union Officials at Selected Facilities Cited Similar 
    Benefits and Different Challenges Associated with the Use of 
    Official Time

    VA managers and union officials from groups we interviewed at 
selected facilities cited similar benefits of employees' use of 
official time for representational activities. Specifically, managers 
and union officials from most groups we interviewed said that 
employees' use of official time improved decision making and helped 
them resolve problems at their respective VA facilities, and some 
believed it improved relationships between management and labor (see 
fig. 1). For example, the use of official time may help prevent 
problems from evolving into formal actions, such as grievances against 
management or disciplinary actions against employees. In addition, 
according to union officials at the national and local levels, 
employees' use of official time also facilitates the whistleblower 
process at VA by providing an avenue for employees to report issues or 
concerns.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Managers and union officials across selected facilities identified 
different challenges associated with employees' use of official time. 
Specifically, managers from all five groups we interviewed cited 
staffing and scheduling challenges associated with employees' use of 
official time. Managers said it is sometimes difficult to accommodate 
such employees' use of official time because it may detract from these 
employees' non-union responsibilities. Union officials from three of 
five groups we interviewed said they experienced challenges with 
limited flexibility in terms of when official time may be used, and 
union officials from four groups said they used varying amounts of 
personal time to conduct union representational activities.

    Chairmen Arrington and Meadows, Ranking Members O'Rourke and 
Connolly, and Members of the Subcommittees, this concludes my prepared 
remarks. I would be happy to answer any questions you may have.

GAO Contact and Staff Acknowledgments

    For further information regarding this testimony, please contact 
Cindy Brown Barnes at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6849489918884879488839585a6818789c8818990c8">[email&#160;protected]</a> Contact 
points for our Offices of Congressional Relations and Public Affairs 
may be found on the last page of this statement. Individuals who made 
key contributions to this testimony include Mary Crenshaw (Assistant 
Director), David Chrisinger, Sheila McCoy, Meredith Moore, Jean 
McSween, Mimi Nguyen, James Rebbe, Catherine Roark, and Almeta Spencer.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

GAO's Mission

    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony

    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (http://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e mail you a list of newly posted 
products, go to http://www.gao.gov and select ``E-mail Updates.''

Order by Phone

    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
http://www.gao.gov/ordering.htm.

    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.

    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

Connect with GAO

    Connect with GAO on Facebook, Flickr, LinkedIn, Twitter, and 
YouTube.
    Subscribe to our RSS Feeds or E-mail Updates. Listen to our 
Podcasts.
    Visit GAO on the web at www.gao.gov and read The Watchblog.

To Report Fraud, Waste, and Abuse in Federal Programs

    Contact: Website: http://www.gao.gov/fraudnet/fraudnet.htm
    E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4a5e4d59484249586c4b4d43024b435a">[email&#160;protected]</a>
    Automated answering system: (800) 424-5454 or (202) 512-7470

Congressional Relations

    Katherine Siggerud, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="75061c1212100700111e3512141a5b121a03">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548

Public Affairs

    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="067f6973686165374661676928616970">[email&#160;protected]</a>, (202) 512-4800
    U.S. Government Accountability Office, 441 G Street NW, Room 7149, 
Washington, DC 20548

Strategic Planning and External Liaison

    James-Christian Blockwood, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2a1a2b7be92b5b3bdfcb5bda4">[email&#160;protected]</a>, (202) 
512-4707
    U.S. Government Accountability Office, 441 G Street NW, Room 7814, 
Washington, DC 20548

                                 <F-dash>
             Prepared Statement of Kimberly Perkins Mcleod
    Good Morning, Chairmen Arrington and Meadows, Ranking Members 
O'Rourke and Connolly, and distinguished members of the subcommittees. 
Thank you for the opportunity to discuss the progress that the 
Department of Veterans Affairs (VA) is making towards accounting for 
``official time'' to provide the best possible service to our Nation's 
Veterans.
    For context purposes, the Federal Service Labor-Management 
Relations Statute (Statute) at 5 United States Code Sec.  7131, governs 
how executive branch agencies treat official time. The Statute provides 
for official time for union representatives to perform certain union 
activities. Official time is duty time during which a bargaining-unit 
employee (an employee represented by a union) may perform 
representational activities in lieu of the employee's management-
assigned work, without loss of pay or charge to leave. The Statute 
provides official time to negotiate collective bargaining agreements 
and to participate in proceedings before the Federal Labor Relations 
Authority. In addition, the Statute requires management and its unions 
to negotiate amounts of official time which the parties agree are 
``reasonable, necessary, and in the public interest.'' Official time 
negotiations are mandatory, apply to most Federal agencies, and include 
provisions relating to the amount, allocation, scheduling, and location 
of official time.
    VA has negotiated varying amounts of official time in both national 
agreements and local agreements. Many VA facilities have local official 
time agreements and practices specific to their location. Official time 
arrangements are frequently distinctively local and reflect the 
relationship and history between local management and local union 
officials. It should be noted that while management has the right to 
negotiate the allocation and use of official time by union 
representatives, in ordinary circumstances, the Statute does not give 
management the right to select which employees serve as union 
representatives.
    Periodically, the Office of Personnel Management (OPM) formally 
requests the official time data from every executive department and 
agency across the Federal Government. It is each agency's 
responsibility to report official time hours used by employees who 
perform representational functions. In the past, VA has produced an 
annual report of agency-wide official time use and submitted the report 
to OPM. As you are aware, the recent U.S. Government Accountability 
Office (GAO) report, dated February 3, 2017, regarding VA official time 
use, describes how VA has historically not implemented a uniform and 
standardized official time reporting system. Local VA facilities have 
reported their official time use to the VA Central Office in various 
ways, including written records, estimates, samples, surveys, or 
combinations of these methods.
    The GAO report notes that VA is now using two timekeeping systems. 
The legacy system, the Enhanced Time and Attendance System (ETA), 
remains in effect at some facilities; other facilities have implemented 
VA's new time and attendance system, commonly referred to as the VA 
Time and Attendance System (VATAS). ETA, the legacy system, does not 
have codes for employees and supervisors to record the local use of 
official time. VATAS, however, does have that capability.
    As of September 2016, approximately 50 percent of VA facilities and 
about one-third of VA employees (120,000) had transitioned to VATAS, 
with its official time-recording capabilities. The full VATAS multi-
facility rollout is scheduled to be completed by July 2018.
    The GAO report includes three recommendations to improve VA's 
ability to accurately track employees' use of official time. VA concurs 
with GAO's recommendations. In response to GAO's first recommendation, 
VA has updated and expanded timekeeper training on the collection and 
reporting of official time in its final ongoing VATAS nationwide roll 
out. Training now includes consistent guidance on the proper method of 
inputting official time codes into VATAS. The GAO report notes that, 
even in facilities already using VATAS, some timekeepers are still not 
properly using VATAS codes to record official time use. VA is offering 
additional training to those facilities where VATAS has been 
implemented, but where particularized training on official time entries 
was not separately addressed. VA is also preparing an additional 
training video concerning official time, to ensure that all timekeepers 
and supervisors understand the importance of maintaining accurate and 
complete official time records. In addition, VA is discussing the 
proper method to record official time during its monthly ``VATAS 
Connections'' call with payroll offices. VA's Office of Labor 
Management Relations will also be reinforcing the importance of 
complete and accurate recordkeeping during its monthly call to local 
human resources professionals nationwide.
    In response to GAO's second recommendation, VA is providing updated 
written instructions to all of its facilities, seeking to establish and 
enforce a standardized approach to recording and reporting official 
time across VA. VA also intends to initiate bargaining with its 
national unions to come to an agreement with them on a standard 
approach to have union officials request, record, and report their use 
of official time in VATAS.
    In response to GAO's third recommendation, VA's Office of Human 
Resources and Administration is preparing updated policy guidance to 
all VA facilities concerning the recording of local official time. For 
those facilities where VATAS is already operational, timekeepers and 
supervisors are instructed to use VATAS to record the use of official 
time. The four reporting categories available on VATAS will mirror the 
categories OPM uses in its government-wide official time reporting. 
Each category will include a description of the activities that fall 
within that category using the identical descriptions provided by OPM-
ensuring a standard VA future recording and reporting approach. As VA 
transitions to a single, upgraded timekeeping system, official time use 
will become more transparent and official time reporting will be 
substantially more accurate. Recording and compiling official time use 
in VATAS will result in a number of positive outcomes. VA's 
standardized approach will guarantee accurate, timely, and reliable 
accounting of official time use across the Agency. Relying on VATAS, VA 
will be able to quickly compile and report official time data to OPM, 
Congress, and to other government agencies; and will have a 
substantially enhanced ability to monitor use of official time at 
individual VA facilities.
    In summary, VA is incorporating GAO's recommendations in its 
operations and the result will be improved, standardized, 
comprehensive, and reliable accounting of official time use at VA. VA 
estimates that it will fully incorporate GAO's first two 
recommendations by April 2017. VA hopes to complete the implementation 
of GAO's third recommendation by July 2018. The Department has taken 
the opportunity to develop a strategy to move forward and meet with our 
labor partners in order to discuss ways to address how we collect and 
report official time, as well as how we ensure that official time is 
used to enhance the labor management relationship at the local and 
national level. By implementing a robust official time system using 
VATAS, the Department and its labor partners can ensure that official 
time is properly managed, recorded and analyzed in order to support 
VA's mission.
    This concludes my testimony, and I am happy to answer your 
questions.

                                 <F-dash>
                Prepared Statement of J. David Cox, Sr.
    Chairman Meadows, Chairman Arrington, Ranking Member O'Rourke and 
Ranking Member Connolly: My name is J. David Cox, and I am the National 
President of the American Federation of Government Employees, AFL-CIO 
(AFGE). On behalf of the 700,000 federal and District of Columbia 
employees AFGE represents, I thank you for inviting me to testify today 
on the use of official time for union activities at the Department of 
Veterans Affairs.

Background

    On January 17, 1962, President John F. Kennedy signed Executive 
Order 10988, Employee-Management Cooperation in the Federal Service, 
which gave federal employees the right to unionize and bargain 
collectively. Seven years later, on October 29, 1969, President Richard 
Nixon issued Executive Order 11491, which reaffirmed and expanded those 
rights.
    In 1978, Congress enacted the Civil Service Reform Act (CSRA) of 
1978 which states clearly the public interest in labor unions and 
collective bargaining in the federal sector. The language of the law 
includes the following:
    The Congress finds that-
    (1) experience in both private and public employment indicates that 
the statutory protection of the right of employees to organize, bargain 
collectively, and participate through labor organizations of their own 
choosing in decisions which affect them-

    (A) safeguards the public interest,

    (B) contributes to the effective conduct of public business, and

    (C) facilitates and encourages the amicable settlements of disputes 
between employees and their employers involving conditions of 
employment; and

    (2) the public interest demands the highest standards of employee 
performance and the continued development and implementation of modern 
and progressive work practices to facilitate and improve employee 
performance and the efficient accomplishment of the operations of the 
Government.
    Therefore, labor organizations and collective bargaining in the 
civil service are in the public interest. \1\
---------------------------------------------------------------------------
    \1\ https://www.law.cornell.edu/uscode/text/5/7101
---------------------------------------------------------------------------
    The CSRA went on to require federal employee unions to provide a 
wide range of representational services for all employees in their 
collective bargaining units, including those who choose not to join the 
union, not to pay dues. Under this ``open shop'' arrangement, federal 
employee unions are also forbidden from collecting any fair share 
payments or fees from non members for the services which the union has 
a legal obligation to provide.
    In order to fulfill unions' legal obligation to provide the same 
services to those who pay as well as those who choose not to pay, the 
Executive Orders and the CSRA instructs agencies to bargain with 
federal employee unions to determine a reasonable amount of ``official 
time'' to carry out these duties. These legal provisions have produced 
an efficient and effective mechanism for the fulfillment of the duty of 
fair representation. Federal employees agree to serve as volunteer 
employee representatives, and agencies allow them to use a reasonable 
amount of official time to engage in representational activities while 
on duty status.
    The representation activities that these elected volunteers may 
engage in while in duty status are limited, and include:

    <bullet>  Developing systems to allow workers to perform their 
duties from alternative sites, thus increasing the effectiveness and 
efficiency of government;
    <bullet>  Participating in management-initiated efforts to improve 
work processes; and
    <bullet>  Creating fair promotion procedures that require that 
personnel selections be based on merit, in order to allow employees to 
advance their careers;
    <bullet>  Establishing flexible work hours that enhance agencies' 
service to the public while allowing employees some control over their 
schedules;
    <bullet>  Setting procedures that protect employees from on-the-job 
hazards;
    <bullet>  Enforcing protections from unlawful discrimination in 
employment;
    <bullet>  Providing affected workers with a voice in determining 
their working conditions.

    I want to emphasize, Messrs. Chairmen, that the list above, while 
not exhaustive, does not include union organizing, the union's 
political activities, or the conduct of internal union business, all of 
which are prohibited by law to be undertaken during hours designated as 
official time.
    The CSRA provides that the amount of official time deemed 
reasonable
    for negotiations and other representational responsibilities that 
may be used is limited to that which the agency and its unions agree is 
``reasonable, necessary, and in the public interest''. \2\ The actual 
amount of time permitted to any employee representative is determined 
in the course of formal negotiations that follow established legal 
regulations. The notion that agencies have ever provided any kind of 
open-ended quantity of official time is erroneous. There is always a 
cap or maximum amount authorized by the agency and set forth in the 
collective bargaining agreement. Under AFGE's current collective 
bargaining agreement with the Department of Veterans' Affairs, local 
union officials are allocated official time under a formula of no more 
than 4.25 hours per bargaining unit employee per calendar year times 
the number of employees the union is legally required to represent at 
each facility. This number represents an annual maximum.
---------------------------------------------------------------------------
    \2\ https://www.law.cornell.edu/uscode/text/5/7131
---------------------------------------------------------------------------
    To protect the taxpayer and the independence and integrity of the 
union, the statute clearly states that all non-representational 
activities of the union must be performed while in a non-duty status. 
That is, the same individual who has volunteered and been elected by 
his or her co-workers to provide representational services cannot do 
any of the following while on ``official time'' or while in duty 
status:

    <bullet>  solicitation of membership;
    <bullet>  internal union meetings;
    <bullet>  elections of officers; and
    <bullet>  partisan political activities.

    I want to emphasize, Mr. Chairman, that official time may not be 
used for the above activities. I can assure you that AFGE's elected 
representatives receive extensive training and guidance on what 
activities are permitted and what activities are forbidden on official 
time. We take very seriously both our legal obligation to represent all 
members of our bargaining units, and the legal prohibitions against 
engaging in non-representational activities. AFGE representatives know 
the difference and act accordingly.
    Finally, federal employees are permitted to file appeals of 
personnel actions outside the scope of the union's negotiated 
collective bargaining agreement. Examples include appeals through an 
agency's internal administrative grievance system or Equal Employment 
Opportunity programs, appeals to the Merit Systems Protection Board 
(MSPB) for adverse personnel actions such as suspensions, removals, and 
reductions-in-force, appeals to the Department of Labor (DOL) and/or 
the MSPB for violations of veterans' preference rules, appeals to DOL 
for workers' compensation, and appeals to
    OPM for violations of the Fair Labor Standards Act. These statutes 
provide a reasonable amount of time to employees and their 
representatives to file such appeals.

Official Time: A Compromise that Works

    The provision of a reasonable amount of official time for 
representational duties in the federal sector reflected a choice from 
among the variety of arrangements that existed in the private sector 
labor-management relations and collective bargaining agreements. The 
alternative to ``official time'' in private sector collective 
bargaining agreements has been to charge employees who exercise the 
right not to pay dues to the union a ``fair share fee'' to cover the 
costs a union bears in enforcing its contract with an employer. In 
these cases, the union uses the fees to hire ``business agents'' to 
preform representational duties. There may still be elected shop 
stewards who convey information to business agents, but the actual 
costs of representation are born by the union and paid for by both dues 
and fair share fees.

GAO's Report: Official Time Also Makes the Government More Efficient, 
    Effective, and Gives Value to the Taxpayer

    At the Department of Veterans' Affairs (DVA), employee 
representatives are able to work together with agency managers to use 
their time, talent, and resources to improve the delivery of services 
to veterans. The January 2017 Government Accountability Office (GAO) 
report we are here to discuss today (Union Activities: VA Could Better 
Track the Amount of Official Time Used by Employees) found time and 
again that elected employee representatives who worked with VA managers 
on workplace and patient issues brought value because of the deep 
commitment to veterans' care that AFGE shares with DVA. ``Managers and 
union officials from most groups we interviewed said that employees' 
use of official time improved decision making and helped them resolve 
problems at their respective VA facilities, and some believed it 
improved relationships between management and labor.'' \3\
---------------------------------------------------------------------------
    \3\ http://gao.gov/assets/690/682250.pdf page 19.
---------------------------------------------------------------------------
    The GAO report found that in two out of three facilities 
investigated, 80% of the groups of managers interviewed agreed that 
employee representatives improved decision making and helped resolve 
problems, and 60% of the manager groups agreed that the union helped 
improve relationships. \4\ Our members' only goal is to deliver 
excellent care and services to our nation's veterans. Excellent, highly 
satisfied and dedicated employees are the VA's most important resource 
and reasonable amounts of official time allows employees to participate 
directly in agency decisions that affect them. And the data in the GAO 
report confirm this to be true.
---------------------------------------------------------------------------
    \4\ http://gao.gov/assets/690/682250.pdf page 20.
---------------------------------------------------------------------------
    It must be emphasized that nowhere in the GAO report is there any 
suggestion or allegation of union wrongdoing with regard to the use of 
official time in DVA. GAO found no union failure to report information 
and no instance where information reported was inaccurate. Rather the 
GAO found simply that DVA failed to collect the data properly.
    Private industry has known for years that a healthy and respectful 
relationship between labor and management improves productivity, 
innovation, quality, and customer service and is often the key to 
survival in a competitive market. It is not uncommon for healthcare 
companies in the private sector to bargain with unions over paid time 
for union officials to be released from duty to work on quality 
improvement, safety and other workplace matters. Kaiser Permanente, 
Johns Hopkins Hospital, the Mayo Clinic, the University of Chicago 
Hospital, New York Presbyterian, Cedars-Sinai--the crown jewels of 
America's private healthcare system--all have unionized employees.
    No effort to improve governmental performance--whether it's called 
reinvention, restructuring, or reorganizing--will thrive in the long 
run if labor and management have an adversarial relationship or are 
precluded from engaging in a mutually respectful exchange of ideas. The 
reasonable use of official time provides the means, not only in DVA but 
also throughout the federal government by which employees and their 
elected representatives participate in the improvement of DVA services. 
In these times, it is essential for management and labor to develop and 
maintain a stable and productive working relationship. We must continue 
to allow employees to choose their representatives who will interact 
and work with DVA management. This is crucial if we are to continue to 
improve the delivery of DVA services to veterans.
    Employee representatives and managers have used official time 
through labor-management partnerships to transform the labor management 
relationship from an adversarial stand-off into a robust alliance. And 
that just makes sense. If workers and managers are communicating 
effectively, workplace problems that would otherwise escalate into 
costly litigation can be dealt with promptly and more informally. And 
that is exactly what happens in DVA. Absent the union's ability to 
resolve a misunderstanding or dispute quickly at the local level, 
managers and employees have few options. If an employee leaves or is 
terminated because of a misunderstanding that could easily have been 
handled through a union dispute resolution process, DVA bears the costs 
of recruitment and training of a replacement, a costly, disruptive and 
unnecessary outcome that a good labor-management relationship can and 
does prevent on a routine basis.
    Routinely, we see examples of official time under labor-management 
partnerships or forums used to bring closure to workplace disputes 
between the DVA and an employee or group of employees. GAO's findings 
support this-it found that VA managers and union officials confirm that 
including the union pre-decisionally in the process of considering 
management decisions improved the decision-making process. The GAO 
study also cited that the union and management worked together on nurse 
scheduling at one facility with the goal of improving staff retention 
and morale. Staff retention and increased morale among VA employees is 
critical to being able to hire and retain outstanding staff to improve 
quality treatment of veterans. It is the inclusion of front-line 
employees through their elected employee representatives that make 
these kind of changes not only more frequent, but also more successful 
and more likely to result in better service to our veterans.

Healthier Labor Management Relations in the Federal Government Also 
    Produce Cost Savings in Reduced Administrative Expenses

    Employee representatives use official time for joint labor-
management activities that address operational, mission-enabling issues 
that improve VA's service to veterans. Patient safety initiatives are a 
prime example of this type of work, and the VHA's prominence and 
success in this area is a source of pride for AFGE. Official time is 
allowed for activities such as designing and delivering joint training 
of employees on work-related subjects; and introduction of new programs 
and work methods that are initiated by the agency or by the union. As 
examples, such changes may be technical training of health care 
providers or jointly inspecting the workplace for hazards; 
participating in VA-wide improvement initiatives like MyVA which 
examined a multitude of ways to improve veterans' care, veterans 
benefit processing and other VA system improvements.
    Employee representatives use official time for routine and unusual 
problem-solving of emergent and chronic workplace issues. For example, 
when they participate in VA health and safety programs which emphasize 
the importance of effective safety and health management systems in the 
prevention and control of workplace injuries and patient safety, 
representatives have been granted official time by their managers. 
Another example comes from the important area of patient safety. The 
reasonable use of official time also allows employee representatives to 
alert management to issues reported to the them without disclosing the 
identity of the employee who made the disclosure, issues that may be a 
matter of life and death to patients. Employee representatives have 
also used allotted official time to ensure that employees are hired and 
promoted fairly. This work leads to better recruitment and retention of 
desperately needed front- line health care to better care for veterans.

Further Findings in the GAO Report

    The GAO Report found that the use of official time by employee 
representatives was valuable to making VA a great place to work and 
improving the delivery of care to veterans. In particular, the GAO 
report found that the use of official time by elected employee 
representatives: improved agency decision making, improved conflict 
resolution and led to better, less adversarial outcomes. The use of 
official time improved the relationship between VA management and 
employees. While some challenges in staffing were identified in GAO's 
report, it is important to note that release from duty is always 
coordinated and agreed to by VA management when employee 
representatives participate in workplace matters. Improved employee 
engagement is a goal of the federal government overall and also of the 
VA in particular. Scaling back the involvement of employee 
representatives under the guise of alleged ``government efficiency'' 
would be a mistake, a short-sighted policy which would deprive the 
agency of the valuable contributions front line employees make to the 
VA through the use of official time.
    The challenges and issues cited by GAO are solely related to VA's 
administrative decisions about how to track official time. AFGE 
supports the accurate collection of data. It would be inappropriate, 
however, to use any failure on the part of the VA in the implementation 
of its internal management systems as a basis to disturb existing law 
and practices with regard to official time. As I stated previously, the 
GAO report found that the use of official time was value added to the 
agency and any bookkeeping failure on the part of DVA management would 
not be a legitimate basis on which to undermine the valuable 
contributions of employee representatives in the workplace.
    The GAO report confirms that official time is a valuable tool for 
facilitating employee input into the shared goal of improving the VA. 
Despite the numerous investigations undertaken by Congress, GAO, VA, 
and VA's OIG and other entities, the use of negotiated time for 
employee representatives has never been found to be connected in any 
way to veteran waitlists, slow processing of veteran claims or any of 
the challenges identified over the years in VA. Instead, the facts show 
that official time is valued by both VA management and employees for 
problem-solving and improving the delivery of care and services to 
veterans. Participation of employees' elected representatives in 
improving the VA and adding value to VA and the whole federal 
government needs to continue so we can all accomplish the goal of 
providing the best services. We urge Congress and the Administration 
not to undermine a system that has a proven track record of success in 
improving government. Inclusion of employees' perspectives in efforts 
to make the VA a better workplace and a better healthcare system have 
proven their worth, and I ask that the committees present today 
recognize the importance of permitting this important work to continue.

Opposition to the use of Official Time

    Those who would like there to be no union representation in the 
Department of Veterans Affairs or in any other workplace, public or 
private, have tried to suggest that VA's understaffing problems could 
be eliminated if only there were no one involved in representation of 
bargaining unit employees. Of course, the numbers make this assertion 
ridiculous. It is estimated that the VA has in excess of 45,000 
unfilled medical positions nationwide. Even if we assume that GAO's 
concerns about VA's recordkeeping with respect to the use of official 
time are valid and VA has perhaps understated the number of hours used 
annually, the numbers reported for 2015 are small: approximately 2.7 
hours annually per bargaining unit employee. \5\ The number of hours 
reported to have been spent on official time throughout DVA, including 
the Veterans Health Administration (VHA), the Veterans Benefits 
Administration (VBA), and the National Cemetery Administration (NCA) 
was equivalent to no more than 508 FTE for bargaining units of nearly 
300,000 in an agency with 350,000 employees.
---------------------------------------------------------------------------
    \5\ http://gao.gov/assets/690/682250.pdf page 13
---------------------------------------------------------------------------
    To attempt to place the blame for VA understaffing on this small 
element of the Department's operations is ludicrous. It would be just 
as appropriate to blame it on the number of people who work in the 
Office of Resolution Management (288), or the number in the General 
Counsel's Office (723), or the Office of the Deputy Assistant Secretary 
for Finance (869) or even the 537 who work in the Secretary's Office. 
\6\ If all of the people in these positions were transferred to the 
bedside of veterans, one could say that there were more people 
providing direct patient care. But the Department is an enterprise with 
many functional needs, and each of these offices perform necessary 
functions. No one is suggesting that the work of these offices should 
cease in order that incumbents be transferred to fill openings 
elsewhere. The function performed by employee representatives is just 
as vital and important as any other Department function focused on 
support of veterans. To suggest otherwise is nothing more than a 
transparent effort to deny employees the union representation for which 
they have voted. And more important, it does a disservice to both the 
veterans who work at the Department and the veterans who rely on DVA's 
employees for the services they have earned.
---------------------------------------------------------------------------
    \6\ https://www.fedscope.opm.gov/ibmcognos/cgi-bin/cognosisapi.dll

---------------------------------------------------------------------------
Conclusion

    The GAO report did recommend that the DVA improve its recordkeeping 
with regard to employee representatives' use of the reasonable amounts 
of official time permitted to them. The report identified no union 
failure or unwillingness to report this information to DVA management. 
And in no way did the report suggest that the use of official time 
presents problems for the Department. Instead, GAO confirms that both 
union and management representatives report positive outcomes as a 
result of allowing for time for union representation. Better decisions, 
better resolution of the inevitable problems that arise in a workplace, 
and improved relationships were all identified as benefits of the work 
of employee representatives. And these benefits all accrue to the 
veterans we hold in such high esteem, the veterans to whose care we 
have devoted our careers.
    I ask the members of the committees to bear in mind that fully one 
third of the Department's workforce are veterans themselves. They have 
fought bravely for the freedoms we all cherish, and that includes the 
freedom to form, join and be represented by a union. Any effort to 
undermine these veterans' union rights should be vehemently opposed. 
The right to form and join a union is surely undermined if that union 
is prevented from exercising its representational duties because 
representation is the very purpose of the union. I thank you for the 
opportunity to testify today, and will be happy to answer any questions 
you may have.

                                 <F-dash>
           Prepared Statement of William Lawrence Kovacs III
    Chairman Meadows, Chairman Arrington, Ranking Member Connolly, 
Ranking Member O'Rourke, and members of the committees. Thank you for 
holding this hearing and providing me the opportunity to discuss the 
issue of official time in the federal workforce. My name is William 
Kovacs III, and I am a labor policy analyst at the Competitive 
Enterprise Institute (CEI). CEI is a nonprofit, nonpartisan public 
policy organization that focuses on regulatory issues from a free 
market and limited government perspective.

Summary

    When Congress enacted the Civil Service Reform Act of 1978 (CSRA), 
it determined (in the findings and statement of purpose) that labor 
unions and collective bargaining in the federal government 
``safeguard[] the public interest,''<SUP>i</SUP> advance ``the 
effective conduct of public business,''<SUP>ii</SUP> and ``improve 
employee performance and the efficient accomplishment of the operations 
of the Government.''<SUP>iii</SUP>
    It is debatable whether permitting collective bargaining in the 
federal government achieves these objectives.<SUP>iv</SUP> Yet, one 
component of the collective bargaining system blatantly undoubtedly 
contradicts the CSRA's findings.
    That provision is known as union official time, which grants 
federal employees paid time off from their government duties to perform 
union work.<SUP>v</SUP> Official time subsidizes federal labor unions 
to file grievances, negotiate contracts, and even lobby Congress. 
Unfortunately, a general lack of transparency surrounding the practice 
makes it impossible to know what specific activities are performed on 
official time or what its costs are.
    Despite official time taking federal employees away from the jobs 
they were hired to do, the federal government imprudently views 
official time as a crucial cog in its carefully crafted collective 
bargaining regime. The fact is that official time is simply a subsidy, 
costing taxpayers at least $157 million in FY 2012.<SUP>vi</SUP>
    Hundreds of federal employees spend 100 percent of their time 
performing union activity instead of any public service.<SUP>vii</SUP> 
It is impossible for a federal employee who never conducts any public 
service to promote the public interest, contribute to effective 
performance of public services, or achieve efficient government 
operations. Activity performed on official time benefits only labor 
unions and their members, not the public.
    Union activity conducted using official time should be financed 
with union dues instead of tax dollars. Federal employee unions contend 
that official time is necessary because the CSRA requires a duty of 
fair representation, which requires unions to represent both dues-
paying members and non-members, and prohibits unions from forcing non-
members to pay dues. A better solution than subsidizing federal unions 
is to release them from the duty to represent non-members and free 
those employees from working under a union contract.
    Union official time is an unwise use of limited tax dollars and 
serves the private interests of unions. The public does not directly 
benefit from the use of official time. Congress should eliminate the 
use of official time. In absence of abolishing official time, greater 
safeguards against its misuse should be implemented, such as a 
detailed, annual accounting of the cost and activities performed on 
official time.

Background

    The Civil Service Reform Act of 1978 statutorily requires the use 
of official time for collective bargaining, impasse proceedings, and 
cases before the Federal Labor Relations Authority (FLRA), the agency 
that resolves labor dispute in federal workforce.<SUP>viii</SUP> 
Outside of this, official time may only be granted ``in any amount the 
agency employer and the exclusive representative involved agree to be 
reasonable, necessary, and in the public interest.''<SUP>ix</SUP> A 
sole statutory restriction on official time is that it cannot be 
granted for internal union business, such as conducting union elections 
or collecting union dues.<SUP>x</SUP> A non-statutory limit on official 
time found in collective bargaining agreements is a requirement that a 
supervisor must authorize official time prior to use. As will be 
discussed below, this is not necessarily an effective safeguard.
    The Office of Personnel Management (OPM) sporadically collects 
official time data from federal agencies and publishes its findings in 
a report.<SUP>xi</SUP> Agencies report official time in four broad 
categories:

    1.General Labor Management-Meetings between labor and management 
officials to discuss general conditions of employment, labor-management 
committee meetings, labor relations training for union representatives, 
and union participation in formal meetings and investigative 
interviews.

    2.Dispute Resolution-Time used to process grievances up to and 
including arbitrations and to process appeals of bargaining unit 
employees to the various administrative agencies.

    3.Term Bargaining-Time used by union representatives to prepare for 
and negotiate a basic collective bargaining agreement or its successor.

    4.Mid Term Bargaining-Time used by the union representatives to 
bargain over issues raised during the life of a term agreement.

    According to the most recent OPM report on official time, the cost 
to taxpayers from salaries and benefits paid for official time was $157 
million in FY 2012.<SUP>xii</SUP> Federal employees spent 3.4 million 
hours on union activities in FY 2012, the equivalent of more than 1,500 
full-time positions.<SUP>xiii</SUP> The majority of FY 2012 official 
time hours-2.64 million hours, representing 76 percent-was spent on 
``General Labor Management,'' activities that are specific to the 
union's concerns.<SUP>xiv</SUP>

Cost of Official Time Is Greater than Reported

    The Office of Personnel Management's official time report is the 
best resource available to understand the cost of official time and how 
it is used, but it has several weaknesses. OPM only reports the payroll 
costs of official time. There are additional non-payroll costs 
associated with official time that OPM does not track or report. 
Collective bargaining agreements between federal employers and unions 
frequently require taxpayer funds to cover the cost of office space, 
telephones, and travel for government employees using official 
time.<SUP>xv</SUP>
    Another report does account for these costs at one agency. The 
Social Security Administration (SSA) is required to produce an annual 
report on its union official time activities. It gives a more complete 
picture of the costs deriving from official time at the agency. In FY 
2015, the value of official time in salary and benefits was $13.2 
million. However, unlike the OPM study, the SSA report also calculates 
the cost of travel and per diem, office space, telephones, supplies, 
interest, and arbitration expenses associated with official time. These 
extra official time costs add up to $2.2 million, which is 15 percent 
of the total official time cost at the SSA.<SUP>xvi</SUP> If non-
payroll official time costs at all other agencies equaled 15 percent, 
it would increase the total costs of official time in the federal 
government by $23 million.
    Additionally, in 2014, the United States Government Accountability 
Office (GAO) issued a report that criticized OPM's accounting methods 
related to official time.<SUP>xvii</SUP> The report found that the 
methodology used by OPM to estimate the cost of official time is 
inaccurate. According to the GAO report, OPM estimates the cost of 
official time by ``multiplying each agency's average salary as reported 
in EHRI [Enterprise Human Resources Integration] for BU [bargaining 
unit] employees covered by official time activities by the agency's 
total reported official time hours.'' Using a more sound methodology 
that uses the actual salary of employees using official time, GAO found 
at four of the six agencies it examined, official time costs are about 
15 percent higher than the OPM cost estimates.<SUP>xviii</SUP>
    The same GAO report notes that OPM cannot affirm that agencies 
report official time hours accurately.<SUP>xix</SUP> Two other GAO 
reports that investigate the Department of Veterans Affairs and the 
National Labor Relations Board (NLRB) make similar claims. Both of 
these reports state that official time hours and activity performed are 
not accurately kept, and in some cases not reported <SUP>xx</SUP>at 
all.<SUP>xxi</SUP> It is more than probable that if agencies accurately 
reported official time hours the total cost would rise.

Official Time at the Department of Veterans Affairs

    Cost and use of official time at the Department of Veterans Affairs 
(VA) has steadily increased in recent years. In 2008, according to OPM, 
federal employees spent 774,679 hours on official time at a cost of 
$29.97 million. In 2012, the numbers jumped to 1.086 million hours, 
costing nearly $46.87 million, which amounts to percentage increases of 
40 percent and 36 percent, respectively, over the four year period. In 
addition to the inflated use and cost over the years, the VA also has 
one of the highest official time rates in the federal 
government.<SUP>xxii</SUP>
    In addition to increasing use and costs of official time, Freedom 
of Information Act requests reveal that over 200 VA employees-including 
over 80 who held nursing positions-spent 100 percent of their time 
conducting union activities.
    In June 2013, upon learning of the practice of official time at the 
VA, Senator Rob Portman (R-OH) and Tom Coburn (R-Okla.) wrote to 
Secretary of Veterans Affairs Eric Shinseki, commenting:

    Federal employees not serving veterans during official time could 
lead to the failure of VA's top goals and the well-being of those who 
have sacrificed in the service our nation, could be compromised.
    Moreover, the recent decision to overtime ``surge'' to help 
eliminate the backlog is troubling considering VA employees who should 
be completely dedicated to serving veterans are authorized for large 
amounts of official time. Accepting policies that foster poor personnel 
management practices in a critical period of VA's history will 
undoubtedly negatively impact veterans who could have otherwise been 
served by taxpayer dollars now reserved for federal employee overtime 
pay. .
    [T]his time of sequestration and tight budgets, it is important to 
know how so many employees can be spared to serve the interest of 
outside groups, instead of carrying out jobs that are essential to the 
health, safety and transition of our nation's veterans.
    Documents show that your department recently employed at least 85 
VA nurses, some with six-figure salaries, who were in 100 percent 
official time status. At the same time, the department is recruiting 
more people to fill open nursing positions. USA Jobs currently has 
openings for hundreds of nursing positions to be 
filled.<SUP>xxiii</SUP>

    Echoing the statement of the Senators is the recent GAO report on 
official time at the VA, which notes that the use of official time can 
cause staffing and scheduling challenges.<SUP>xxiv</SUP>
    Worse, in the department's master collective bargaining, VA 
employees are permitted to use official time for lobbying instead of 
fulfilling the agency's mission of serving veterans.<SUP>xxv</SUP>

Official Time Enables Filing of Frivolous Grievances

    Subsidizing union activity via official time gives union 
representatives the opportunity to file frivolous grievances and other 
appeals. This is a predictable outcome, when union representatives are 
given a nearly unlimited amount of official time to prepare, file, and 
defend federal employees in any kind of appeals procedure.
    Of 4,300 grievances filed before the Federal Labor Relations 
Authority in FY 2012, unions initiated over 90 percent. Only 20 percent 
proceeded to trial before an FLRA administrative law judge, and of 
those, the FLRA found an actual violation of the CSRA in only 13 
instances-or .003 percent of the 4,300 charges filed.<SUP>xxvi</SUP>
    It is also important to note, that when cases come before the FLRA, 
taxpayers pay for all costs associated with grievances, unfair labor 
practice filings, and other representation matters.<SUP>xxvii</SUP> 
Official time pays union representatives to work on behalf of the 
employee, not taxpayers. Tax dollars also pay any and all expenses 
incurred by the agency, arbitrators, and employees. This is a costly 
perk when only .003 percent of all grievances result in actual 
violations.<SUP>xxviii</SUP>
    Federal Labor Relations Authority member Patrick Pizzella notes 
several examples of conspicuously frivolous grievances that, if not for 
official time, would likely never be filed. In a case where union 
officials of an American Federation of Government Employees Border 
Patrol local were granted official time, ``the taxpayers paid for the 
parties to bicker over whether the agency or the union should pay the 
cost of leftover food from a union-sponsored event that had lower-than-
expected attendance purportedly because the agency would not permit the 
union to use its public address system.''<SUP>xxix</SUP>
    In another grievance, officials of the Federal Union of Scientists 
and Engineers asked the FLRA ``to resolve whether an agency was 
required to bargain over the union's request to place an American flag 
near the entrance of a cafeteria.''<SUP>xxx</SUP>
    A recent grievance before the FLRA involved employees at a Social 
Security Administration teleservice center in Indiana. One day they 
reported to work and the ``heating system was not operating to capacity 
and that the ambient air temperature in the office was sixty-five 
degrees. The Agency swiftly reported the problem to the building owners 
and the temperature was raised to sixty-seven degrees by 10:15 a.m. and 
sixty-eight degrees by 1:00p.m.''<SUP>xxxi</SUP> AFGE, the SSA 
employees' union, immediately filed a grievance, arguing that the SSA 
``failed to make `every reasonable effort' and should have considered 
additional `appropriate arrangements' such as `bringing in supplemental 
heat/cooling equipment or closing the office and granting employees 
administrative leave.''<SUP>xxxii</SUP>

Lobbying on Official Time

    Like all other individuals or organizations, federal employee 
unions have the right to lobby government, but they should not do so at 
the taxpayer's expense. Unfortunately, the FLRA, on multiple occasions, 
has ruled that federal employees are allowed to lobby government while 
using official time.
    There are laws, such as the Anti-Lobbying Act, that prohibit 
federal employees from engaging in political activity with the use of 
appropriated funds. Despite these restrictions, the FLRA has permitted 
lobbying on official time and such provisions appear in a number of 
collective bargaining agreements.
    In 2000, the FLRA approved a proposal by the Association of 
Civilian Technicians, which represents employees at the Department of 
Defense, to be granted official time for lobbying 
purposes.<SUP>xxxiii</SUP> The decision appears to directly contradict 
section 8012 of the DOD appropriations law of 2000, which prohibits 
federal employees from lobbying Congress:

    None of the funds made available by this Act shall be used in any 
way, directly or indirectly, to influence congressional action on any 
legislation or appropriation matters pending before the 
Congress.<SUP>xxxiv</SUP>

    Somehow, the FLRA determined that the use of official time to lobby 
Congress does not conflict with the unambiguous text of the DOD 
appropriations law.
    In the same decision, the FLRA decided that lobbying government on 
official time does not run afoul of another law, the purpose of which 
is to prohibit lobbying with appropriated money. The law states:

    No part of the money appropriated by any enactment of Congress 
shall, in the absence of express authorization by Congress, be used 
directly or indirectly to pay for any personal service, advertisement, 
telegram, telephone, letter, printed or written matter, or other 
device, intended or designed to influence in any manner a Member of 
Congress, a jurisdiction, or an official of any government, to favor, 
adopt, or oppose, by vote or otherwise, any legislation, law, 
ratification, policy, or appropriation, whether before or after the 
introduction of any bill, measure, or resolution proposing such 
legislation, law, ratification, policy, or 
appropriation.<SUP>xxxv</SUP>
    Notwithstanding efforts made by Congress to root out lobbying by 
federal employees while using tax dollars, as a general rule, lobbying 
on official time is permitted:

    As a general proposition . unions may negotiate for official time 
to lobby Congress on employment-related matters, as AFGE Local 12 and 
Dept. of Labor, 61 FLRA 209, 216 (2005), explained concerning Proposal 
6, ``lobbying Congress. Union representatives shall be granted official 
time to lobby Congress concerning pending or desired legislation 
affecting conditions of employment of bargaining unit 
employees.''<SUP>xxxvi</SUP>

    In a number of cases, the FLRA has ruled to permit unions to 
negotiate for official time for purposes of lobbying activity related 
to employee work conditions, including at the Department of Veterans 
Affairs.<SUP>xxxvii</SUP>
    Due to a lack of tracking the activity on, and reporting of, 
official time, it is unknown how much time federal employees spend 
lobbying Congress on official time. Failing to eliminate official time, 
greater restrictions should be placed on using official time to lobby 
Congress.

Federal Employees use Official Time without Authorization

    There are very few safeguards against unnecessary use of official 
time. One limitation placed on official time is that collective 
bargaining agreements can require supervisors to sign off on official 
time requests.<SUP>xxxviii</SUP>
    However, according to an Inspector General audit of official time 
at the National Labor Relations Board, employees regularly took 
official time without receiving authorization from a 
supervisor.<SUP>xxxix</SUP>
    The audit revealed a lack of control over official time usage. Upon 
inspection, the audit found that the NLRB did not track the amount of 
time given and allowed employees to take official time without prior 
approval. The Inspector General found that documentation for requesting 
and approving the use of official time was ``generally not 
maintained.''

    The Inspector General reported:

    We also found that the Agency could, but does not, record the use 
of official time by bargaining unit employees in its payroll system. 
Instead, four different forms are used to record official time 
information on a monthly basis. The forms do not match the categories 
reported to OPM and compiling the figures for the report appears to 
require a certain degree of estimation.<SUP>xl</SUP>

    The Inspector General concludes:

    Given the cost of the official time, the lack of oversight, and the 
disparity with the Government-wide average, we question whether the 
amount of time used by these officials meets the statutory test of 
reasonableness, necessity, and public interest.<SUP>xli</SUP>

Conclusion

    Official time is an unnecessary subsidy to federal employee unions 
that serves the interests of unions and their members, not the public. 
The taxpayer does not receive a direct benefit or any discernable 
consideration in return for the cost of official time.
    Congress should eliminate the federal union subsidy known as 
official time. Short of that, detailed annual reporting of official 
time should be required and agencies should improve their tracking of 
union activity. Taxpayers have a right to know how much of their tax 
dollars are used to finance official time and what union activities 
federal employees undertake instead of the job they were hired to do.

Notes

    <SUP>i</SUP>  5 U.S.C. Sec.  7101(a)(1)(A)), https://www.gpo.gov/
fdsys/pkg/USCODE-2010-title5/html/USCODE-2010-title5-partIII-subpartF-
chap71.htm.
    <SUP>ii</SUP>  5 U.S.C. Sec.  7101 (a)(1)(B)), https://www.gpo.gov/
fdsys/pkg/USCODE-2010-title5/html/USCODE-2010-title5-partIII-subpartF-
chap71.htm.
    <SUP>iii</SUP>  5 U.S.C. Sec.  7101 (a)(2)), https://www.gpo.gov/
fdsys/pkg/USCODE-2010-title5/html/USCODE-2010-title5-partIII-subpartF-
chap71.htm.
    <SUP>iv</SUP>  For a general critique of collective bargaining in 
government, see David Denholm, ``Beyond Public Sector Unionism: A 
Better Way,'' Public Service Research Foundation, October 1994, http://
www.psrf.org/issues/beyond.jsp#art1.
    <SUP>v</SUP>  5 U.S.C. Sec.  7131, https://www.gpo.gov/fdsys/pkg/
USCODE-2010-title5/html/USCODE-2010-title5-partIII-subpartF-chap71.htm.
    <SUP>vi</SUP>  Office of Personnel Management, ``Labor-Management 
Relations in the Executive Branch,'' October 2014, https://www.opm.gov/
policy-data-oversight/labor-management-relations/reports/labor-
management-relations-in-the-executive-branch-2014.pdf.
    <SUP>vii</SUP>  Americans for Limited Government, ``Full-Time 
Official Time: A Special Report Exposing Taxpayer-Funded Union 
Employees,'' summer 2016, https://getliberty.org/wp-content/uploads/
2016/06/ALGF-Full-Time-Official-Time-Report--Final--Binder--
06.28.16.pdf.
    <SUP>viii</SUP>  5 U.S.C. Sec.  7131 (a) (c), https://www.gpo.gov/
fdsys/pkg/USCODE-2010-title5/html/USCODE-2010-title5-partIII-subpartF-
chap71.htm.
    <SUP>ix</SUP>  5 U.S.C. Sec.  7131 (d) (2)), https://www.gpo.gov/
fdsys/pkg/USCODE-2010-title5/html/USCODE-2010-title5-partIII-subpartF-
chap71.htm.
    <SUP>x</SUP>  5 U.S.C. Sec.  7131 (b), https://www.gpo.gov/fdsys/
pkg/USCODE-2010-title5/html/USCODE-2010-title5-partIII-subpartF-
chap71.htm.
    <SUP>xi</SUP>  See note 6.
    <SUP>xii</SUP>  Ibid.
    <SUP>xiii</SUP>  Ibid.
    <SUP>xiv</SUP>  Ibid.
    <SUP>xv</SUP>  Mark Flatten, ``Too Big To Manage: Public pays for 
government unions to lobby for more federal spending,'' Washington 
Examiner, February 4, 2014, http://washingtonexaminer.com/public-pays-
for-government-unions-to-lobby-for-more-federal-spending/article/
2543213.
    <SUP>xvi</SUP>  Social Security Administration, ``Social Security 
Administration Report Concerning Expenditures for Union Activities,'' 
January 21, 2016, https://www.ssa.gov/legislation/
Official%20Time%20for%20Union%20Activities--FY2015.pdf.
    <SUP>xvii</SUP>  Government Accountability Office, ``Actions Needed 
to Improve Tracking and Reporting of the Use and Cost of Official 
Time,'' GAO-15-9, October 2014, http://oversight.house.gov/wp-content/
uploads/2014/11/GAO-report.pdf.
    <SUP>xviii</SUP>  Ibid.
    <SUP>xix</SUP>  Ibid.
    <SUP>xx</SUP>  National Labor Relations Board Office of Inspector 
General, ``Official Time for Union Activities,'' Report No. OIG-AMR-62-
10-01, December 2009, http://www.nlrb.gov/sites/default/files/
attachments/basic-page/node-1700/oig-amr-62-10-01--0.pdf.
    <SUP>xxi</SUP>  GAO, ``VA Could Better Track the Amount of Official 
Time Used by Employees,'' Report to the Chairman, Committee on 
Veterans' Affairs, House of Representatives, January 2017, http://
www.gao.gov/assets/690/682250.pdf.
    <SUP>xxii</SUP>  ``Labor-Management Relations: REPORTS ON OFFICIAL 
TIME,'' OPM website, accessed February 13, 2017, https://www.opm.gov/
policy-data-oversight/labor-management-relations/reports-on-official-
time/.
    <SUP>xxiii</SUP>  ``Portman/Coburn Letter: Should 188 VA Employees 
Be Paid To Do Union Work Full-time While Veterans Face Backlog?,'' June 
5, 2013, Office of Senator Rob Portman, http://www.portman.senate.gov/
public/index.cfm/press-releases?ID=6bbed8f6-35c2-49e3-a0fb-
fd10a0089f04.
    <SUP>xxiv</SUP>  See note 21.
    <SUP>xxv</SUP>  Contract between Department of Veterans Affairs and 
the American Federation of Government Employees and National Veterans 
Affairs Council of Locals, https://www.va.gov/LMR/AFGE--Master--
Agreement--Final.pdf.
    <SUP>xxvi</SUP>  AFGE, Local 2913, 67 FLRA 107 (2013), https://
www.flra.gov/decisions/v67/67-26.html.
    <SUP>xxvii</SUP>  Ibid.
    <SUP>xxviii</SUP>  Ibid.
    <SUP>xxix</SUP>  Ibid.
    <SUP>xxx</SUP>  Ibid. The Federal Union of Scientists and Engineers 
(FUSE) is a local of the National Association of Government Employees, 
which itself is a local of the Service Employees International Union. 
Federal Union of Scientists and Engineers, ``About FUSE,'' FUSE 
website, accessed February 10, 2017, http://fuseunion.org/about-fuse.
    <SUP>xxxi</SUP>  AFGE, Local 3571, 67 FLRA 178 (2014), https://
www.flra.gov/decisions/v67/67-46.html.
    <SUP>xxxii</SUP>  Ibid.
    <SUP>xxxiii</SUP>  ACT, Razorback Chapter 117, 56 FLRA 62 (2000), 
https://www.flra.gov/decisions/v56/56-062.html.
    <SUP>xxxiv</SUP>  Department of Defense Appropriations Act, 2000, 
https://www.govtrack.us/congress/bills/106/hr2561/text.
    <SUP>xxxv</SUP>  18 U.S.C. Sec.  1913, https://www.law.cornell.edu/
uscode/text/18/1913.
    <SUP>xxxvi</SUP>  Peter Broida, ``A Guide to Federal Labor 
Relations Authority Law and Practice,'' 2014, American Civil Service 
Law Series, http://deweypub.com/store/15FLRA.html.
    <SUP>xxxvii</SUP>  Here is a selection of cases permitted lobbying 
on official time decided by the FLRA: NFFE, Local 122, 47 FLRA 105, 
(1993), https://www.flra.gov/decisions/v47/47-105.html. NFFE, Local 
259, 52 FLRA 93, (1997), https://www.flra.gov/decisions/v52/52-
093.html. ACT, Granite State Chapter, 54 FLRA 38, (1998), https://
www.flra.gov/decisions/v54/54-038.html.
    <SUP>xxxviii</SUP>  See note 20.
    <SUP>xxxix</SUP>  Ibid.
    <SUP>xl</SUP>  Ibid.
    <SUP>xli</SUP>  Ibid.

                                 <F-dash>
                       Statements For The Record

                           CINDY BROWN BARNES
    The following is Cindy Brown Barnes' response to a question posed 
by Representative O'Rourke during the February 16, 2017 hearing on the 
use of official time for union activities at the Department of Veterans 
Affairs-pp.53-54 of the uncorrected hearing transcript. Please strike 
Ms. Barnes' response, and replace with the following:
    Response from 3-9-17: For our January 2017 report, we did not 
analyze the amount of official time used by employees at agencies other 
than VA, and we did not examine other agencies' practices for tracking 
and recording unions' use of official time. According to OPM's 2014 
Labor-Management Relations in the Executive Branch report, VA used the 
most official time in fiscal year 2012 compared to the other agencies 
included in the report in terms of total hours. However, according to 
the OPM report, VA had a lower rate of official time use expended per 
bargaining unit employee compared to several other large agencies. The 
rate of official time use is derived by dividing the total number of 
official time hours by the number of bargaining unit employees. For 
example, VA had a rate of 4.8 hours per bargaining unit employee, 
compared to other large departments such as the Departments of the 
Treasury and Transportation, which had a rate of approximately 7.3 and 
6.4 hours per bargaining unit employee, respectively.

                                 [all]



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
